<html>
<title> - NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2009 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-110]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2009

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

             BUDGET REQUEST FROM THE DEPARTMENT OF DEFENSE

                               __________

                              HEARING HELD

                            FEBRUARY 6, 2008

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                  U.S. GOVERNMENT PRINTING OFFICE
44-096                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK J. MURPHY, Pennsylvania      MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     BILL SHUSTER, Pennsylvania
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona          DOUG LAMBORN, Colorado
NIKI TSONGAS, Massachusetts
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                Andrew Hunter, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, February 6, 2008, Fiscal Year 2009 National Defense 
  Authorization Act--Budget Request from the Department of 
  Defense........................................................     1

Appendix:

Wednesday, February 6, 2008......................................    69
                              ----------                              

                      WEDNESDAY, FEBRUARY 6, 2008
  FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                     FROM THE DEPARTMENT OF DEFENSE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     4
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Gates, Hon. Robert M., Secretary of Defense, Department of 
  Defense........................................................     6
Mullen, Adm. Michael G., USN, Chairman, Joint Chiefs of Staff....     8

                                APPENDIX

Prepared Statements:

    Gates, Hon. Robert M.........................................    73
    Mullen, Adm. Michael G.......................................    80

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Abercrombie..............................................   103
    Ms. Bordallo.................................................   105
    Ms. Castor...................................................   110
    Mr. Cummings.................................................   108
    Mrs. Davis of California.....................................   107
    Mr. Forbes...................................................   105
    Dr. Gingrey..................................................   107
    Mr. Kline....................................................   106
    Mr. Thornberry...............................................   104

  FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                     FROM THE DEPARTMENT OF DEFENSE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Wednesday, February 6, 2008.
    The committee met, pursuant to call, at 1:10 p.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, we welcome you to 
today's hearing to review our budget from the Department of 
Defense (DOD) for fiscal year 2009.
    We have with us today the Secretary of Defense, the 
Honorable Robert Gates, the Chairman of the Joint Chiefs of 
Staff, Admiral Michael Mullen.
    And, gentlemen, we welcome you and we thank you both for 
your lifetime of service, service that you have dedicated to 
our country, and the tremendous jobs you are now doing for the 
Department of Defense and for our country.
    Whatever else we discuss today, I want to start by 
expressing the deep respect and admiration and appreciation 
that this committee has for each one of you.
    And this sentiment extends equally to the millions of men 
and women serving in uniform, as well as to our defense 
civilians, who of course you lead.
    On Monday the President submitted his budget request, which 
includes $515.4 billion for the Department of Defense, an 
increase of 7.5 percent from last year; the 11th consecutive 
year that defense spending has increased and the 10th 
consecutive year it has increased faster than the rate of 
inflation.
    Congress and the Department will not agree on every detail 
in that budget. I do, however, strongly support the decision to 
have a real increase in defense spending. Even with this extra 
funding, the Department of Defense will have serious and 
compelling unmet needs, as I will discuss later at greater 
length.
    Last year, the risk assessment given to Congress by General 
Peter Pace indicated an increased strategic risk to the 
country. I do not see that risk has in any way reduced, so a 
real increase in our defense spending I think is necessary and 
appropriate.
    I am pleased to see that you have provided funding for the 
Grow the Force initiative for the Army and the Marine Corps in 
the base budget; a measure, gentlemen, that I have advocated 
since 1995.
    I am also pleased to see a 3.4 percent pay raise, although 
I am concerned that this increase only matches the rising cost 
of living and does not close the pay gap with the private 
sector.
    I am disappointed that the Department actually proposes to 
widen the pay gap for its civilian employees by reducing their 
pay raise to 2.9 percent.
    I was also very disappointed that the budget again proposes 
increasing health care fees on military servicemembers, as well 
as their families, that we have not been able to maintain 
funding for the shipbuilding plan that Admiral Mullen wrote 
when he was Chief of Naval Operations.
    I am concerned that this budget deters hard choices on 
several large budget issues--like procurements of the F-22s and 
the C-17s--to Congress, as well as to the next Administration.
    On your request for war funding, I am must give you a grade 
of incomplete. That is not a passing grade.
    This committee must understand the full magnitude of the 
Department's needs, both so that we can provide the oversight 
required under the Constitution and so we can communicate them 
to the American people.
    We feel so strongly that we required this in law. This 
budget request does not allow us to perform that duty.
    I asked that you give us a full year's funding estimate for 
war costs, with as much detail and fidelity as possible.
    Neither the President nor Congress should pass the buck on 
this decision to General Petraeus. Providing adequate funding 
for our troops is our responsibility.
    But if there is only one message that, I hope, you, Mr. 
Secretary, and you, Mr. Chairman, take away from our hearing 
today, is this. There is a deep, deep concern, among many of us 
on this committee, about the risk facing the Nation in two key 
areas of our responsibility.
    I liken it to the sword of Damocles, which hung suspended 
by a single thread over the head of Damocles, a citizen of the 
ancient Greek city of Syracuse, reminding him that catastrophe 
was just a hair's breadth away.
    Just so, we must act now to avoid failures with grave 
consequences. First, I am deeply concerned about our current 
readiness posture, and in particular about the readiness of our 
ground forces.
    As a matter of fact, I recently sent a letter to Mr. 
Secretary and received an answer thereto today regarding this 
issue.
    The readiness shortfalls, which were alarming last year, 
have continued to expand, and will now require a significant 
investment of time and money to restore full capability.
    This is a special concern because in my 31 years in 
Congress we have been involved in 12 significant military 
conflicts, not one of which was predicted beforehand.
    We are simply not prepared for the emergence of such a 
conflict today. I know that both of you are also concerned and 
are deeply committed to addressing readiness shortfalls, both 
today's problems with personnel, training and equipment, and 
those that relate to modernization, which produces our 
readiness for tomorrow.
    We must focus on our strategic priorities to find the right 
balance between near-term needs on the one hand, and the long-
term health of our military, and straighten out the roles and 
missions of the forces.
    You will note there was a provision in the bill that we 
just passed and signed by the President regarding your duties 
for a roles and missions determination.
    So, help us in our job so we can help you. You start by 
moving quickly to appoint a Defense Material Readiness Board 
by--that was established in the last Defense Authorization Act.
    Second, gentlemen, I am concerned about the possibility of 
a rapid deterioration of security and stability in Afghanistan. 
History will judge very harshly if our focus and effort in 
Afghanistan is insufficient to the task. A failure of the 
mission there would not only damage our security; it would do 
serious damage to the North Atlantic Treaty Organization 
(NATO).
    We should remember that Afghanistan was the genesis of the 
terrorism that struck New York and our Pentagon. We should do 
first things first, just as in World War II where we focused 
more of our resources on Germany in the beginning in the war in 
Europe until that war was won.
    Again, I know that both of you are mindful of Afghanistan, 
as well. I know that the situation there shows some signs of 
progress, as well as signs for concern.
    We look forward to continuing to work with you on this 
difficult challenge.
    On the issue of Iraq, we want to work with you to ensure 
the safest possible redeployment of our troops from that 
country, to return control to the people of Iraq as soon as 
reasonable.
    Two issues stand out. One is the plan to negotiate 
agreements with Iraq beyond the traditional status of forces 
agreement. We understand that the Administration's plan is to 
bind the United States to the defense of Iraq.
    Such defense agreements that commit us to fight on behalf 
of an ally have historically always--and I will repeat 
``always''--been sent to Congress for approval, as with our 
agreement with South Korea and Japan. It is my view that any 
such agreement with the government of Iraq must be brought 
before Congress.
    Similarly, the fiscal year 2008 National Defense 
Authorization Act (NDAA) prohibits the use of any funding to 
permanently station U.S. forces in Iraq or to obtain economic 
control of Iraq's oil resources. The committee intends to 
provide oversight to ensure that this law is followed.
    And last, I would be remiss if I didn't say a word about 
signing statements. After a false start with our bill in 
December, the President did sign our authorization act on 
January the 29th of 2008. And when he did so he included a 
signing statement that identified four provisions of the law 
which the President said he would interpret consistent with his 
authority as Commander in Chief.
    One of them is the law I mentioned prohibiting the 
permanent stationing of U.S. forces in Iraq.
    Gentlemen, these provisions do nothing to undermine the 
authority of the President or the executive branch under the 
Constitution. We fully expect the Department to implement the 
law, all of the law, and we will be, of course, watching the 
issue very closely.
    Now I turn to my friend, my colleague, Duncan Hunter from 
California, the ranking member of this committee, for his 
opening remarks. Mr. Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman. And thank you for 
holding this very important threshold hearing for this 
committee and for the country.
    And I want to join you in welcoming Secretary Gates and 
Admiral Mullen and the very able Ms. Jonas, who has served in 
her Department very capably.
    Thanks a lot for your contribution, gentlemen, to national 
security, and to the work that you have done.
    Before I lay out my own concerns about fiscal year 2009 
budget requests, I just want to express my gratitude to our 
American men and women who are presently serving on a variety 
of battlefronts, most notably in Iraq and Afghanistan, and of 
course elsewhere around the globe, and their families back 
home.
    And I am sure that my colleagues share my deep appreciation 
for their commitment, sacrifice and patriotism.
    And it is to their service that we dedicate this defense 
bill, to make sure that they are equipped adequately, that the 
challenges that meet them are mitigated, to the greatest degree 
possible, and that we take care of those people with respect to 
the personnel issues that are so critical to keeping folks in 
the force and bringing new people in.
    So let me first note that I am somewhat disappointed that 
the Administration didn't request funding to cover the full 
costs of the war in fiscal year 2009. And I am confident you 
are going to rectify this situation so that we can provide the 
needed funding to support our troops. But you didn't include 
that in fiscal year 2009. And I think that disappointed a great 
many of us.
    Also, the President's request for the fiscal year 2009 
Department base budget amounts to $515.4 billion, which is $36 
billion more than last year's enacted base appropriation.
    However, I am still disappointed that, while seemingly 
robust, this figure does not provide a minimum threshold of 
four percent of Gross Domestic Product (GDP), a threshold that 
several defense and military experts insist is required to meet 
the current and future needs of our military.
    In fact, Admiral Mullen, I understand from your recent 
statements that you are generally supportive of this approach. 
So, I would like to ask both our witnesses to address why the 
President's budget request does not reflect a truly robust 
level of defense spending.
    And I would like you also to explain at a--in a general way 
what types of national security risks the Administration is 
implicitly accepting as a result of that.
    For example, my own experience tells me that the budget 
request is insufficient to counter the emerging challenges in 
China's increased space, undersea and deep-strike military 
capabilities.
    And as we have classified briefings on China's emergence as 
a military superpower, and especially their activities lately 
in space and with respect to production of overseas 
capabilities and assets, we don't see a corresponding change in 
American policies that you have manifested in programs or 
operations to offset or to meet those challenges. And I would 
like you to address that today, if you could.
    Also, in my estimation, the Navy and the Air Force 
investment accounts are somewhat underfunded, it appears to me 
about to the tune of about $20 billion each, impacting both 
their readiness and modernization programs.
    And I think we can't afford to separate investments in the 
Air Force and Navy from the current conversation about the 
state of the military's readiness.
    Last, I know, Mr. Secretary and Admiral Mullen, you have a 
balancing act that you have to undertake right now. You need to 
concentrate on the warfighting theaters in Afghanistan and 
Iraq, and on the other hand, and at the same time, you have to 
address those problems which are emerging on the horizon.
    And I understand that that is going to be--that that is 
never an easy thing to do when you have limited dollars.
    My recommendation would be that you lay out what we need to 
address both of those challenges, both the present challenge 
and the war against the terrorists, and the emerging challenges 
of this new world, and let us make decisions as to what we cut 
and what we don't cut.
    But let us know what we need to have a robust capability 
against these new challenges, both in this near-term and 
present-term operation, but also in what we are going to see in 
the next 5 to 10 years, especially emerging from China's 
military buildup.
    Let me give you just a couple of other things that I think 
are important for our country.
    You know, as we send more and more of our industrial base 
offshore, and we fracture this industrial base and a great deal 
of our capabilities in making components and critical materials 
goes to other countries, I think it becomes important for us to 
take an inventory and understand whether or not we have what it 
is going to take to build the systems of the future, or whether 
we are losing critical capabilities.
    I think that is something that this Administration and this 
Department should concentrate on.
    Another challenge that you are going to have over the next 
couple of years--and you have got it right now--is technology 
transfer. And as we see foreign countries coming in with 
massive amounts of money to acquire American companies, some of 
those companies are defense companies with critical 
capabilities that you utilize to give us an advantage over 
potential adversaries.
    And, you know, I know the attitude of the Administration is 
always to keep you out of what they consider to be their lane, 
and allow their Commerce Department and the Treasury and others 
to control the apparatus that oversees the acquisition of 
American defense contractors by foreign agencies, with some 
slight intervention, at some pressure points by DOD.
    I think you need to pay a lot of attention to those 
transactions. Because those transactions and the acquisition of 
high-technology companies in the United States that have 
militarily critical technology could at some point bear on our 
ability to keep an edge over a potential adversary.
    So I think that is going to be a problem in the future, for 
this country, if you don't undertake some very strong scrutiny 
right now.
    Last, of course, all of our focus is still on the 
warfighting theaters. And if you have some time today to 
address it, this stand-up of the Iraqi army is obviously the 
lynchpin and the crucial point of making a satisfactory handoff 
of the security burden in Iraq.
    And I would like to have some comment, if you would, to 
your--in your estimation, whether or not you are satisfied with 
the stand-up as it is proceeding, and the rotation of Iraqi 
battalions into the battlefield and their displacement of 
American heavy combat forces.
    So, thanks for being with us today. Mr. Chairman, thank you 
for the hearing. I look forward to the testimony.
    The Chairman. Thank you very much.
    At the counsel table is also the Under Secretary of 
Defense, the Comptroller, Tina Jonas. We appreciate your being 
with us.
    With us also in the audience is the wife of our chairman, 
Deborah Mullen. We appreciate your being with us today and 
witnessing this historic event.
    And I will remind our members we are operating under the 
five-minute rule. We will do our very, very best to make sure 
that as many have the opportunity to ask questions.
    Secretary Gates.

   STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE, 
                     DEPARTMENT OF DEFENSE

    Secretary Gates. It is a pleasure to be here for my second 
and last posture statement.
    Let me thank you, first of all, for your continued support 
of our military for these many years. And I appreciate the 
opportunity to discuss the President's fiscal year 2009 defense 
budget.
    Before getting into the components of the request, I 
thought it might be useful to consider, in light of the current 
strategic landscape, a landscape still being shaped by forces 
unleashed by the end of the Cold War nearly two decades ago.
    In recent years, old hatreds and conflicts have combined 
with new threats and forces of instability, challenges made 
more dangerous and prolific by modern technology: among them 
terrorism; extremism and violent jihadism; ethnic, tribal and 
sectarian conflict; proliferation of dangerous weapons and 
materials; failed and failing states; nations discontented with 
their role in the international order; and rising and resurgent 
powers whose future paths are uncertain.
    In light of this strategic environment, a complex strategic 
environment, we must make the choices and investments necessary 
to protect the security, prosperity and freedom of Americans 
for the next generation.
    The investment in defense spending being presented today is 
$515.4 billion, or about 4 percent of our gross domestic 
product when combined with war costs. It compares to spending 
levels of 14 percent of gross domestic product during the 
Korean War and 9 percent during Vietnam.
    Our fiscal year 2009 request is a 7.5 percent increase, or 
$35.9 billion, over last year's enacted level. When accounting 
for inflation, this translates into a real increase of about 
5.5 percent.
    The difference consists of four main categories which are 
outlined in more detail in my submitted statement.
    Overall, the budget includes $183.8 billion for overall 
strategic modernization, to include $104 billion for 
procurement to sustain our Nation's technological advantage 
over current and future adversaries; $158.3 billion for 
operations, readiness and support to maintain a skilled and 
agile fighting force; $149.4 billion to enhance the quality of 
life by providing the pay, benefits, health care and other 
services earned by our all-volunteer force; and $20.5 billion 
to increase ground capabilities by growing the Army and Marine 
Corps.
    This budget includes new funding for critical ongoing 
initiatives such as Global Train and Equip to build the 
security capacity of partner nations, security and 
stabilization assistance, foreign language capabilities, a real 
increase in science and technology basic research, and the new 
Africa Command (AFRICOM).
    In summary, this request provides the resources needed to 
respond to current threats while preparing for a range of 
conventional and irregular challenges that our Nation may face 
in the years ahead.
    In addition to the $515.4 billion base budget, our request 
includes $70 billion in emergency bridge funding that would 
cover war costs into the next calendar year. A more detailed 
request will be submitted when the Department has a better 
picture of what level of funding will be needed.
    The 2007 National Defense Authorization Act requires the 
Department of Defense to provide an estimate of costs for the 
global war on terror (GWOT).
    We would like to be responsive to the request. Indeed, I 
was responsive to a similar request last year.
    Some have alleged the Administration has taken this 
position in order, somehow, to hide the true costs of the war. 
Nothing could be further from the truth. The Department has 
been very open about what we know about our costs, as well as 
what we don't know.
    So the challenge we face is that a realistic or meaningful 
estimate requires answers to questions that we don't yet know, 
such as when and if the Department will receive the requested 
$102 billion balance of the fiscal year 2008 supplemental war 
request and for how much, and what, if any, adjustments to 
troop levels in Iraq will result from the upcoming 
recommendations of General Petraeus.
    We should also keep in mind that three-quarters of the 
fiscal year 2009 supplemental request will likely be spent in 
the next Administration, thus making it even more difficult to 
make an accurate projection.
    I have worked very hard during my time in this position to 
be responsive and transparent to this committee and to the 
Congress. Nothing has changed.
    But while I would like to be in a position to give you a 
realistic estimate of what the Department will need for a 
fiscal year 2009 supplemental, and will do so at the earliest 
possible time, I simply can't at this point. There are too many 
significant variables in play.
    I can give you a number, but that number would inevitably 
be wrong, perhaps significantly so, and in short precision 
without accuracy.
    As I mentioned earlier, Congress has yet to appropriate the 
remaining balance of the fiscal year 2008 war funding request, 
$102.5 billion. This delay is degrading our ability to operate 
and sustain the force at home and in the theater and is making 
it difficult to manage the Department in a way that is 
physically sound.
    The Department of Defense is like the world's biggest 
supertanker; it cannot turn on a dime and it cannot be steered 
like a skiff. I urge approval of the 2008 GWOT request as 
quickly as possible.
    Finally, I would like to thank the members of this 
committee for all you have done to support our troops, as well 
as their families. I also thank you for your attention to and 
your support of efforts to improve the treatment of our wounded 
warriors over the past year.
    In visits to the combat theaters, military hospitals and in 
bases and posts at home and around the world, I continue to be 
amazed by the decency, resilience and courage of our troops.
    Through support of the Congress and our Nation, these young 
men and women will prevail in the current conflicts and be 
prepared to confront the threats that they, their children and 
our Nation may face in the future.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Gates can be found in 
the Appendix on page 73.]
    The Chairman. I thank the secretary.
    Admiral Mullen.

   STATEMENT OF ADM. MICHAEL G. MULLEN, USN, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    Admiral Mullen. Thank you, Chairman Skelton, Representative 
Hunter, distinguished members of this committee. Thank you for 
the opportunity to appear before you today.
    And I am honored to be here alongside Secretary Gates, a 
man whose leadership and insight I greatly admire.
    We are here, as you know, to discuss with you the 
President's fiscal year 2009 budget submission, and, more 
broadly, the state of our forces. Let me speak for just a 
moment about the latter.
    The United States military remains the most powerful, most 
capable military on the face of the Earth. No other nation has 
or can field and put to sea the superb combat capabilities 
resident in our Army, Navy, Marine Corps, and Air Force.
    I say this not with false pride or arrogance; I say it with 
conviction, for it is an indisputable fact.
    This stands as a testament, of course, to the brave and 
talented men and women who serve, active, Reserve, National 
Guard and civilian, as well as their families.
    I have been on record as saying they are the finest I have 
ever seen. I meant it then; I mean it now. Each trip to the 
field, each visit to a base, each bedside I stand beside only 
reaffirms that for me.
    I know many of you have also made such visits and can 
attest to the same.
    So I also believe our enormous strength speaks well of the 
hard work of this committee and the Congress as a whole as it 
does of the American people, who through you, their elected 
representatives, have invested heavily and wisely in their 
national defense.
    We are grateful, and we will continue to need that support. 
For however powerful we may be today, that power is not assured 
tomorrow.
    That is why the budget we are submitting this week includes 
more than $180 billion for strategic modernization, including 
$3.6 billion for the Army to continue developing the Future 
Combat System, and $3.4 billion to procure 20 more F-22 
fighters, and another $700 million in research and development.
    That is why it calls for money to continue to build the 
next generation aircraft carrier and guided missile destroyer, 
increased spending on missile defense, as well as funding to 
complete the stand-up of AFRICOM; and it is why we are asking 
for more than $20 billion to increase the size of the Army and 
the Marine Corps.
    Some have argued there isn't much new in this budget, no 
big surprises. Maybe so. Quite frankly, we ought to take a 
little bit of pride in that. Because it says to me that we 
looked pragmatically at all of our requirements, that we did 
our homework, and that, from a fiscal perspective, we have a 
good handle on where we want to go.
    You know, recently, a reporter reminded me the other day 
that, as investments, budgets are really a type of strategy. If 
that is so, and I believe it is, this budget reveals great 
balance in our strategy for the future, a realization that 
while we continue to fight and develop counterinsurgency 
warfare, we must also prepare for, build for and train for a 
broad spectrum of traditional war-fighting missions.
    We are doing well in Iraq, no question. Violence is down. 
Business is up. Al Qaeda is clearly on the run. Ambassador 
Crocker and General Petraeus deserve a lot of credit there.
    The surge of forces we sent them and their innovative 
application of counterinsurgency tactics have markedly improved 
security on the ground.
    As both individuals have made clear, this progress is 
tenuous and must be carefully watched. I understand their 
concerns as we keep bringing home the surge brigades. 
Conditions on the ground count. But tenuous, too, is the long-
term risks we are taking to our security commitments elsewhere 
in the world if we do not address the toll that ongoing combat 
operations are taking on our forces, our gear, our people, and 
their families.
    The well is deep, but it is not infinite. We must get Army 
deployments down to 12 months as soon as possible. People are 
tired.
    We must restore our Marine Corps expeditionary 
capabilities. They are dangerously on the wane.
    We must stay dominant at sea, in space, as well as 
cyberspace. Others are beginning to pace us in the speed of 
war.
    We must do a better job identifying and treating not only 
the wounds we see, but the wounds we do not see. Too many of 
our returning warriors suffer in silence.
    This budget allocates $41.6 billion to provide world-class 
care and quality of life for the entire force. We must honor 
military families by enhancing GI bill benefits' 
transferability by broadening federal hiring preferences for 
military spouses and by expanding child care benefits in 
appreciation for their many sacrifices.
    And we must continue to stay persistently engaged around 
the globe, building partner capacity, improving international 
interagency cooperation, and fostering both security and 
stability.
    I urge Congress to enact the authorities in the joint State 
Department and Defense Department Building Global Partnerships 
Act.
    A few weeks ago, I was called to testify before this 
committee about our progress in Afghanistan. I told you then 
that we were seeing only mixed progress and that Afghanistan 
was, by design, an economy of force operation.
    I told you we would do what we can there. I stand by those 
comments, even as we prepare to send more than 3,000 Marines 
over there, and even as Secretary Gates continues to press our 
NATO allies for more support.
    The business of war, not unlike governing, is about 
choices. As a student of military history, you know this all 
too well. Military leaders must make hard decisions every day, 
choices that affect the outcome of major battles, whole 
nations, and the lives of potentially millions of people.
    As we head into this new year, with fresh assessments of 
our progress in Iraq, a new push in Afghanistan, and a 
continued fight against the violent extremists, as we consider 
the depth and breadth of traditional capabilities we must 
improve, please know that I and the Joint Chiefs remain 
committed to making informed choices, careful choices, and 
choices which will preserve, at all times and in all ways, our 
ability to defend the American people.
    Thank you, sir.
    [The prepared statement of Admiral Mullen can be found in 
the Appendix on page 80.]
    The Chairman. I thank the chairman.
    Admiral Mullen, last year, your predecessor, General Pace, 
increased his rating of the risk in executing the national 
military strategy in his formal assessment that he sent to 
Congress.
    I would like to know from you whether that risk has changed 
again this year, up or down, and what does this year's budget 
contain to reduce strategic risk--please?
    Admiral Mullen. My overall assessment, Mr. Chairman, is the 
risk has basically stayed consistent, stayed steady--it is 
significant; and that in certain parts of it and in certain 
areas over the last year, for instance, our success on the 
ground in Iraq, where the threat has receded and al Qaeda, as I 
indicated, is on the run, we have reduced risk there. We have 
got more stability there, as an example.
    Clearly, on the other side, we are a year longer in the 
war. We have--and I applauded the decision, when Secretary 
Gates made it a year ago January--to limit deployments to 15 
months to set the schedule, because it started to give us some 
predictability. But 15 months is too long. And we need to get 
to 12, and actually move to a 1-year deployment and 2 years 
back as rapidly as we can.
    And so we continue to build risk with respect to that.
    The challenges that, I think, were laid out before continue 
to be with us, in terms of the weapons of mass destruction, the 
investments that we are asking for in terms of building global 
partnerships, investing in train and equip, the kinds of 
monies, standing up AFRICOM--is a way to reduce, I think, 
global risk.
    So, overall--and clearly, we would continue to invest in 
some of our--we have continued to invest in both the irregular 
kinds of capabilities that we need to handle the threat as it 
continues to evolve, and I think we will be doing that for a 
significant period of time, as well as the traditional kinds of 
challenges that we will have on the conventional side.
    Most of all, this budget invests in balance.
    The Chairman. As I understand it, Admiral, you will be 
sending your formal assessment to the Congress in the near 
future. Am I correct?
    Admiral Mullen. I will, yes, sir.
    The Chairman. Mr. Secretary, readiness has suffered 
significantly, as you know and as we have discussed. And I know 
the Department balances restoration of the force on the one 
hand and investing in the future on the other.
    And we have made a significant investment here in Congress 
to restoring readiness, but we have not seen any improvement in 
the readiness posture. Can you give us any hope for the future 
regarding our readiness posture, because it is of great concern 
to each one of us here?
    Secretary Gates. Yes, sir. Well, I think that, first and 
foremost, the effort involves the program to grow the Army and 
to grow the Marine Corps. And the Army will grow by about 
65,000, and the Marine Corps by 27,000.
    And as you indicated in your opening statement, that 
money--the money to do that is now in the base budget. So I 
think that is an important place.
    We have about $46 billion in the 2008 supplemental for 
reconstituting the force. We received about $13 billion-plus of 
that in the bridge. So that will help us replace equipment and 
repair equipment that is associated here.
    So I think there are a number of things that are in the 
budget that put us on the path to improved readiness. But it is 
clear that our readiness is focused, at least in the Army, on 
fighting the wars that we are in, in both Afghanistan and in 
Iraq, and that the forces that are being sent there are fully 
trained and are ready when they go.
    The areas where there are concerns about readiness clearly 
have to do with full spectrum warfare.
    Mr. Chairman, I would just make two observations about 
readiness. All of this is true, and readiness is a problem, and 
particularly full spectrum readiness. But I also think that a 
little perspective is in order.
    In 1990, when we got ready to fight Desert Storm, our Army 
had not been in a war in 15 years. It had been through the 
budget plus-ups of the 1980's. And I think you could argue that 
the Army was, for all practical purposes, all in the green, as 
it were, in 1990.
    It still took us six and a half months to get an Army to 
Saudi Arabia in order to drive the Iraqis out of Kuwait.
    I think we have a much more expeditionary Army today. 
Bringing about the change in structure to a modular Army and 
brigade combat teams, I think, has given us in many respects a 
far more expeditionary and far more usable military force in 
many respects than we had in 1990.
    The other aspect is that in the mid-1990's, readiness was 
considered, for example on equipment, was considered a 65 
percent fill of equipment. And so as far as equipment was 
concerned, units that had 65 percent were considered in the 
green.
    Those accounting rules were changed, and so now readiness 
is at the 100 percent level for equipment. And so many of the 
units are in the red, and they are in the red for specific 
kinds of missions. So I think that sometimes charts 
oversimplify the situation.
    But that said, readiness is a concern. Full spectrum 
readiness is a concern. The tiredness of the force is a 
concern. And I think we have a number of things in the budget 
that help address this.
    The Chairman. I thank the gentleman.
    Before I ask Mr. Hunter, I might state that, as I 
understand it, Mr. Secretary, Admiral, you must leave at five 
o'clock. Is that correct?
    Secretary Gates. Yes, sir. I am getting on a plane to go 
talk to the allies about Afghanistan.
    The Chairman. Yes, sir. And there will be a 10-minute break 
at 3 o'clock.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Again, gentlemen and Ms. Jonas, thanks for your appearance 
today.
    Afghanistan, Mr. Secretary--we are sending roughly 3,000 
Marines to southern Afghanistan, which is a point of some 
conflict, where allies right now are handling some battlefield 
duties. And that is an exception, because in a number of the 
areas of Afghanistan, the allies are working under very limited 
rules of engagement. But that is one of the tougher areas in 
Afghanistan.
    We have got 25 allies there in the NATO nations. We are 
providing roughly half of the combatants in Afghanistan, if you 
take both of our forces there. Of the 54,000, I think we have 
got something like 25,000, 26,000 personnel.
    That means that we have seen a failure on the part of the 
allies to come up with what would be roughly 100 soldiers a 
piece to meet this challenge that we think may emerge in the 
spring time, with respect to that southern area of operations 
(AO).
    Where are we failing in terms of being able to get these--
bring these recalcitrant allies? Even as we fight the war in 
Iraq, having--for us to have to bring in a majority of the 
participants in the Afghanistan theater, it seems to be to a 
sad commentary on the allies and their participation.
    Since you are going to go talk to them, maybe you shouldn't 
tell us your strategy. [Laughter.]
    Secretary Gates. Mr. Hunter, I----
    Mr. Hunter. Give us your thoughts on that.
    Secretary Gates [continuing]. Want to tell you that I have 
finally achieved something I have been working very hard for, 
for the last year: I have brought unity to the alliance--
unfortunately, not in the right direction.
    First of all, I think it needs to be said that the British, 
the Australians, the Canadians, the Dutch, the Danes have been 
fighting very hard in the south, have taken significant 
casualties compared--first period, and especially when compared 
to the size of force that they have there. And so we--credit 
needs to be given where credit is due.
    The problem that we have, I believe, is that--the principal 
problem is that the people of Europe do not understand that 
Afghanistan--the importance of Afghanistan to their own 
security in the first place, and second that the way the 
alliance responds to taking on this commitment will say much 
about the future of the alliance itself.
    We cannot have a two-tiered alliance where some countries 
fight and die and others do only civilian or civil 
contributions.
    And so my hope is that--there are several things that I 
think we can do. One of the things that I have proposed at 
Nordvick last fall was that the alliance develop a three- to 
five-year strategic plan, both military and civil, that would 
say where we would like to see Afghanistan in three to five 
years, first of all, to lift the allies' eyes above the end of 
2008 or the end of 2009 and get them to think about what is our 
strategy and where do we want to see Afghanistan, and how do we 
get there, and what are some milestones along the way.
    I believe that that suggestion was accepted. The NATO staff 
is working on such a paper today, a strategy. And I believe it 
will be presented and approved at the NATO summit in Bucharest.
    And my hope is that this strategy will be used by European 
governments, in part, to help educate their own publics about 
the importance of this effort in Afghanistan.
    One area that I have mentioned on several occasions where I 
think, frankly, that Congress can help is in your interactions 
with members of European parliaments. In many respects, as 
elected representatives, you have much more credibility than 
people like I do, in terms of telling them the importance of 
their exercising a leadership role in educating their 
constituents as to the importance of Afghanistan.
    And I am going to be at the Wehrkunde conference after the 
defense ministers' meeting in Vilnius. And one of the things 
that I am doing is hosting a reception for our congressional 
delegation and European parliamentarians, because I think you 
all have the opportunity to really make an impact.
    Because what is really central here is the fact that I 
think the governments get it, and they understand the 
importance, but many of them are minority governments or they 
are coalition governments that are very limited in what they 
can do. And what it requires is going out and building 
political support among their people.
    And I think your interactions, I think the strategy paper, 
I think the leaders of the NATO allies strongly affirming the 
commitment in Afghanistan at the Bucharest summit are all 
important aspects of trying to get the Europeans, in 
particular, to backfill behind the Marines when the Marines 
come out, come next November or so.
    Mr. Hunter. Thank you.
    I just hope, Mr. Secretary, that this will not--this 
doesn't presage a rotation in which the Marines end up becoming 
the primary combatants in the southern AO, and we see the 
allies who are fighting extracting their forces, essentially 
swapping out.
    And, Mr. Chairman, I would just say this, we have major 
participation in American defense contracts by our allies. And 
one argument that they make when they come in to get a piece of 
that taxpayer dollar in a major programs is that we need to 
have this interoperability so that when we move together and 
find common ground in these military operations, we will be 
using the same equipment and using the same programs.
    I think that this Congress ought to scrutinize the 
participation by European allies who seem to have no problem 
convincing their citizens that they should get a good piece of 
the American defense dollar but seem to have this tremendous 
challenge when they are called on to support us in common cause 
in this war against terrorists.
    So I think we ought to look at this, this year, and give it 
some scrutiny.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Mr. Spratt.
    Mr. Spratt. Thank you all for your fine testimony and for 
your service to your country--and that includes Ms. Jonas. 
Having worked in the comptroller's office--and you will see 
that in a minute from the questions I ask--I particularly 
appreciate the work she does.
    We talk about how much we are spending for defense--and you 
have to go to a lot of different places to put together the 
bottom line, the total. DOD, as I read your documents, is 
asking for $515.4 billion, Department of Defense.
    But Department of Energy (DOE) has a piece of the defense 
action too, mainly for the nuclear program, and that is $16 
billion. The other executive agencies, like the Coast Guard--
$5.2 billion. That brings total discretionary spending in your 
request to $537 billion.
    There is some mandatory spending, about $4 billion. That 
takes you to $541 billion.
    And then we have got this plug. We don't know what the 
number is going to be.
    We do know what it has been in the past. In the recent 
past, it was about $190 billion for supplemental expenditures 
to support the war effort in Afghanistan and Iraq.
    If you put $190 billion onto the $541 total we have got, 
the total comes to $730 billion. If you back it down a bit and 
assume that we will have lower costs, less costs, this year 
than last year, then let us say it is $150 billion instead of 
$190. You are still at $700 billion.
    In the year 2000 we had a defense budget of $300 billion. 
So we are up more than 100 percent in less than a decade. And 
that has to be a matter of concern, because we do have, in the 
end, finite resources.
    Am I missing something?
    Don't these numbers strike you as a pretty substantial sum 
of money for the defense effort?
    Secretary Gates. Mr. Spratt, there is no question that it 
is a huge amount of money. Absolutely no two ways about that.
    By the same token, going back to a discussion at the 
beginning of the hearing, as I indicated, the base budget 
itself is about 3.4 percent of GDP. If you add the war costs, 
it is about 4 percent of GDP, a significant lower percentage of 
our national treasure than during any of the wars that we 
fought in the 20th century.
    So it is a huge amount of money, but the threats that we--
--
    Mr. Spratt. It is--$700 billion is 5 percent of the GDP.
    Secretary Gates. Well, if you include energy and Coast 
Guard and everything else, yes, sir.
    Mr. Spratt. Now, let me--you and Office of Management and 
Budget (OMB), in putting the budget together, came up with a 
new category called Security, which is more than DOD and more 
than DOE.
    It is all of the agencies that have something to do with 
national security, like the Department of Homeland Security, 
which certainly is defending the homeland; the Federal Bureau 
of Investigation (FBI) and its national defense functions; and, 
of course, veterans' programs, which are cost-collateral to the 
war effort.
    We added up all of those costs in 2008, and we got $814 
billion. And as a percentage of GDP, that was about 5.6 
percent.
    So, as we talk about 4 percent and 4.5 percent, I think it 
is well to remember, to remind ourselves that, broadly 
considered, it is actually more than that at the present time.
    Now, there is one other thing about your presentation and 
your budget submission that has been curious to me, and that 
is, in last year's presentation of the different tables in 
discretionary spending, and then again in this year's 
presentation of the different tables, that is, military 
personnel, procurement, Research, Development, Test and 
Evaluation (RDT&E)--just add up those discretionary spending 
accounts.
    In the out-years, 2009, 2010, 2011 and 2012, spending 
actually goes down, at least in constant dollar terms and real 
terms.
    By our calculation, 2010, your--the difference between 2009 
and 2010 is about $5 billion--there is actually a decrease in 
real spending in those years, and that pattern follows out 
through the full period through 2013.
    Is there some reason outside the budget for this? I mean, 
is OMB saying we have got to balance the budget by 2012, and we 
have also got to take all of the tax cuts that passed in 2001 
and 2003 and the supplement--the extenders, and in order to 
accommodate these things, you got to actually reduce defense 
spending in real terms?
    Ms. Jonas. Thank you, Mr. Chairman.
    One of the reasons that we got an increase in this year is, 
obviously, the price of fuel has gone sky-high. And so what OMB 
will typically do for an adjustment--an economic adjustment 
like that is give us--take a look at this year, and then we 
will adjust in the out-years.
    But, again, the out-year question is really not one for 
this department; it is really one for OMB.
    Mr. Spratt. I will let you have our calculation and you can 
take issue with it. But by our calculation, in constant 2008 
dollars, the national defense discretionary funding is $528 
billion in 2009, $523 billion in 2010, $516 billion in 2011, 
$512 billion in 2012 and $509 billion in 2013; it goes down in 
real purchasing terms, which strikes me as odd if----
    Secretary Gates. Mr. Spratt, I would just tell you, I 
think, as I have looked to the out-years--I think we are seeing 
that if we stay at the guidance level that we have been given 
in those out-years, there will be negative growth in the 
defense budget.
    And I think that is one of the issues that I need to 
address with both the director of OMB and the President.
    Mr. Spratt. Thank you very much.
    The Chairman. Thank the gentleman.
    Mr. Saxton from New Jersey.
    Mr. Saxton. Thank you, Mr. Chairman.
    And, Mr. Secretary, Admiral, Ms. Jonas, thank you for your 
great contribution to our country in your public service.
    I would like to speak for a minute and ask you a question 
about a subject that is near and dear to my heart, and that is 
strategic airlift.
    The ranking member, in his opening statement, talked about 
making sure that we have the right equipment to make us an 
effective fighting force. And as I look back at the strategic 
airlift program, it seems to me that the case could be well 
made that the strategic airlift program that we have 
historically had in my tenure here, which has been over 20 
years, has been less than efficient.
    And I say that without being critical of anyone, because 
Congress has imposed statutes and requirements on the strategic 
airlift program that, in my view, inhibited it in some cases, 
and in other cases have actually made the program more 
expensive, in my opinion.
    I noticed in today's Congressional Daily an article, and I 
would just like to quote a few paragraphs from it to make the 
point that we still don't have direction on this subject.
    The article says, ``In its fiscal year 2009 budget sent to 
Capitol Hill Monday, the Pentagon did not request any funding 
to shut down production lines of either the Lockheed Martin F-
22 Raptor fighter jet or the Boeing C-17 Globemaster III cargo 
plane, even though there are no firm plans to build any more of 
either aircraft.''
    And then later it says, about the C-17: ``Pentagon 
Comptroller Tina Jonas said congressional add-ons to the 
program over the years led defense planners to believe that the 
shutdown costs ought to be then included in a future budget.
    ``Another senior Air Force official later told reporters 
that there are a variety of things going on that really impacts 
the ability to make decision on shutting down the C-17 line.
    ``Those factors include cost problems with the large C-5 
Galaxy cargo plan modernization programs and the Bush 
administration's decision to enlarge the Army and Marine Corps 
by 92,000 troops, which may require more aircraft to transport 
ground forces, the official said.''
    My question is this, we have never--I guess my question is 
this, we have never had a master plan for strategic airlift. We 
have had a C-17 plan. And for a while, we were on track with a 
multi-year buy which helped bring the cost down and have a 
steady production line. Later, we went to single-year buys, and 
the cost went up.
    Then there was a proposal, at about the same time, to 
modernize the C-5 fleet. Congress imposed some requirements 
which doubled the size of the fleet that we were going to 
modernize. We then studied the program and have now apparently 
concluded that modernization of the other half, the C-5A half, 
probably is not cost-efficient, and we ought to do something 
different.
    And so, both Congress and the Administration are and 
continue to be in a position with no clear plan on where to go 
with this subject.
    And I guess my question is this: Can we cooperate somehow 
together to develop a master plan so that we can do it cost 
efficiently and know that we are going to get where we need to 
be with regard to strategic airlift?
    Secretary Gates. Well, let me say a word and then invite my 
colleagues to chime in.
    My impression is that--and this happened before I assumed 
this position--is that there were several strategic mobility or 
air mobility studies done. And it was the conclusion of those 
studies that a satisfactory package for air mobility and to 
meet the anticipated mission needs would be 180 C-17s and 112 
C-5s.
    The Congress has added--we had no money for additional C-
17s in the budget last year.
    If I am correct, Congress added 10 additional C-17s. We 
have NATO that has now come in to buy several C-17s as part of 
a shared arrangement with them.
    The problem that you note with the C-5s is a very real one. 
The reality is that if we re-engine the entire C-5 fleet, it 
will cost us about $14 billion for about a 10 percent 
improvement in mission reliability. If we do just the A's--or 
just the B's, it will be about $6 billion.
    So we think we have got a package. We have the joint cargo 
plane coming along.
    So we thought we had a pretty good package. But there 
continues to be tinkering with it--let me just characterize it 
that way.
    But, Chairman, do you want to say anything?
    Admiral Mullen. I would only add to that, Mr. Saxton, that 
this part of our capability are the unsung heroes. We could not 
be doing anything close to what we are doing right now, nor 
could we handle future requirements without the extraordinary 
efforts on the part of those who, in fact, carry out this 
mission.
    And so, from a military standpoint, your question about how 
much more of this now that we are growing the force I think is 
a legitimate question that we don't have an answer to yet.
    And there are--and we are struggling with what we are going 
to do in terms of refurbishing the right portion of C-5s.
    And so, while there have been discussions, and this is from 
my perspective--there have been discussions about shutting 
these lines down, you know, in the middle of two wars--or, I am 
sorry, the C-17 line--in the middle of two wars, given the 
challenges we have got there, I think we just need to approach 
this very judiciously.
    I won't say that a study will solve it. You have directed 
one in NDAA 2008, and, in fact, we are taking another one on 
over here in the next six months to try to do exactly what you 
said, and certainly--I mean, from my perspective, we would be 
willing to work to get a plan that makes sense.
    The Chairman. The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    And I want to thank the secretary and Admiral Mullen for 
being with us today.
    And I want to thank Mr. Mullen for gracing the state of 
Mississippi by serving as the sponsor to one of our ships just 
a couple of weeks ago.
    Mr. Secretary, during December, there were several highly 
publicized, and some less highly publicized incidents of 
Iranian boats running up very close to our vessels.
    I find that troubling, for a number of reasons. Number one, 
for every vessel that goes through, there is probably an equal 
number of unarmed vessels that go through, carrying, again, 
billions of dollars of American equipment, each with American 
lives on board.
    Given that we don't ever want a war to start at a time and 
place not of our choosing, what steps, if any, have you taken 
to let the Iranians know that their behavior was unacceptable; 
to establish some perimeters around our vessels that we expect 
the Iranians to honor; to let it be known that, if they don't 
honor that, that we will consider that an act of war, or, if it 
happens to be someone that they claim they don't control, that 
those people will be treated as pirates.
    But, given that, on a daily basis, both commercial vessels 
are sailing from East Coast ports, carrying things over there, 
that we have warships in the area, I have got to believe that 
the kind of parameters that we have vis-a-vis the North Koreans 
have led to less wars, not more, that the arrangements we had 
with the Soviets, toward the end of the Cold War, led to fewer 
incidents, not more.
    I have got to guess that, in the wake of the Chinese 
downing the P-3 not that long ago, that some sort of 
arrangement was reached with them that has led to fewer 
incidents, not more.
    So, again, what, if anything, has our military done, either 
broadcasting something over Al Jazeera, in a military-to-
military sense, or through the State Department, to let the 
Iranians know that this is unacceptable?
    Because, again, we do not want a war at a time and a place 
not of our choosing.
    Secretary Gates. I think this is a very important issue, 
Mr. Taylor. I would tell you one of my early concerns, after I 
became secretary, was exactly what you just said, and that was 
inadvertently getting into a conflict that would then escalate.
    So the first guidance that I gave was that I wanted to make 
sure that we were not being provocative and that we were 
playing well inside the baselines, both in terms of aircraft--
where aircraft were flying and also where our ships were 
steaming.
    We have given a good deal of latitude to our commanders, to 
the captains of our ships, in terms of how they respond to 
these provocations. There is a series of warning steps that 
they take, steadily escalating warnings that the admiral could 
speak to.
    As you may know, a few months ago a warning shot was fired. 
We were very close to one of our ships opening fire on one of 
those swiftboats or one of those fast boats in the gulf in this 
most recent episode that you referred to.
    So we try to give the flexibility to the captains to 
exercise their judgment, but believe me, sir, I believe that, 
particularly in the statements that were made, both publicly 
and privately, after that incident, the Iranians can have no 
illusions about the consequences of trying to attack one of our 
ships.
    Mr. Taylor. Mr. Secretary, if you would, again, given the 
events of the Cole, given the events of the Vincennes, in one 
instance a number of Americans died, in the other instance a 
number of Iranians died, what is the downside to a clearly 
established set of guidelines--doesn't have to be unilateral--
where we broadcast to the Iranians that this is the buffer we 
expect our ships to be protected, that we in turn will respect 
that for other nations? What is the downside to that?
    Because what I fear could happen is the Iranians get used 
to boundaries X and another skipper comes along who doesn't 
honor boundaries X, decides on his own that it is going to be 
boundary Y, people start shooting, and against we find 
ourselves in a war that we did not choose.
    Admiral Mullen. I think, Mr. Taylor, the issue of 
miscalculation has been on our mind out in that part of the 
world for the last 10 years, and we have worked that very hard, 
and we don't want to miscalculate. There is the series.
    We, in our Navy, we rely on the commanding officers (COs) 
and their judgment. And what I worry about with respect to 
specific boundaries, if you pick 200 meters or 300 meters to 
start firing, that there would be situations which could be 
equally risky by mistakes that get made having those specific 
boundaries.
    In fact, I am heartened by the fact that each of those 
commanding officers of those three ships the other day and 
their crews had been through that scenario in training and 
preparation, the CO, in particular, in his or her preparation 
for taking command in that environment.
    So, it is, from my perspective, there is wisdom in in fact 
relying on their judgment, as we did the other day. And the CO, 
one of whom, as the secretary said, had literally given the 
order to fire, and it turns out one of the fast boats turned 
away simultaneously.
    So it is an environment that we pay a lot of attention to. 
We have for a long time. And we think--and I am well aware of 
the concerns that you bring, and we don't want to miscalculate 
there.
    One of the challenges we have is we don't have a channel to 
the Iranians. We don't have a way to communicate with them that 
is normal to express the kinds of concerns we had, let us say, 
with the Soviets where we had incidents at sea, that kind of 
agreement. And we have started just to work international 
signals with them.
    One of the other challenges we have is the Republican Guard 
Navy--the Iranians have two navies. They have recently asserted 
themselves to essentially take over the Gulf, and the regular 
Iranian navy has been moved to outside the Gulf and up to the 
Caspian Sea.
    So we are very much on alert for this. And I am not anxious 
to see an incident occur which spirals out of control, as well. 
I think that would be very dangerous for that part of the world 
and actually not just in the Gulf, but regionally and 
potentially internationally.
    The Chairman. Mr. McHugh, New York.
    Mr. McHugh. Thank you, Mr. Chairman.
    Gentlemen, Ms. Jonas, thank you for being here.
    I think it is fair to say that most, if, indeed, not all of 
us, share the chairman's concerns expressed in his question 
about readiness.
    And, Mr. Secretary, you addressed some of the what I think 
can be fairly described as positive steps that have been 
taken--the approval of the NDAA, et cetera, et cetera.
    There are a lot of things that affect readiness. We 
understand that.
    But I would argue that key amongst them is growing the 
force, end strength. And, in fact, Admiral Mullen said on page 
nine of his statement, ``The most important investment in the 
president's fiscal year 2009 budget is the commitment to expand 
our Army, Marine Corps and Special Operations forces.''
    Mr. Secretary, you mentioned the NDAA, which has been 
passed, which authorizes increased end strength. You then, 
though, spoke about the 2008 supplemental, which, I believe has 
not been passed.
    What does this Congress's failure to come forward and pass 
this in a timely fashion, the 2008 supplemental, do to 
readiness and do to the expand the force initiative under way, 
that, I will certainly say, is one of the most critical things 
we have before us?
    Secretary Gates. Well, let me ask Ms. Jonas to follow up, 
but it seems to me that a big part of the concern is our 
ability to contract for the repair and replacement of our 
equipment, and in the difficulties, now that we are five months 
into the fiscal year, of being able to keep the flow going to 
the depots and to those doing the repair of the equipment.
    We are clearly draining personnel accounts from the base 
budget, or were, until we got the $70 billion bridge--or the 
$70 billion out of the $102 billion that was coming to us.
    But I would say that it is in this procurement area that is 
the biggest concern.
    And, I would say, just having to manage the Department, 
kind of, week to week, in this--we talked about the size of the 
Department of Defense and its budget and not being able to know 
what the funding stream is going to look like two or three 
months out causes everybody to make decisions, every day, that 
husband resources because we have an uncertain future.
    And I think those are some of the concerns. And I think 
that produces inefficiencies. And we are clearly not doing some 
things as well as we should be because of these uncertainties.
    So, I think, those kinds of things--but let me ask Ms. 
Jonas to add a word or----
    Mr. McHugh. Can I go back to my original question, and--
whether it is Ms. Jonas or Mr. Secretary--using the Army as an 
example, there is an acceleration beyond the baseline, in 
authorized end strength, that is provided in the NDAA 2008, of 
nearly 4,000 troops.
    Will you be able to do that, without the supplemental, is 
really the question.
    Ms. Jonas. Mr. McHugh, that is a great question. Just to 
add to what the secretary said, we have approximately $6.2 
billion in the remaining balance that we have asked for, in 
this supplemental, that would do that, that would help stress 
on the force and that would help those units stand up.
    In addition, as the secretary said, there is reset money in 
here that is important for our readiness. There is about $32 
billion left that we require. And maybe Admiral Mullen would 
like to talk to the effect of that on the troops.
    And last, I would say there is about $11 billion of force 
protection that is still on the table. So we could--it would be 
very important for us to get those items sooner than later.
    Mr. McHugh. Let me go on to another question, if I can.
    Many of us--the chairman of the Personnel Subcommittee, now 
Ms. Davis, and I and others--are concerned about the military-
to-civilian conversions that are happening in the medical area. 
In fact, about 5,000 have been converted from military 
positions to civilian positions across the services since 2005.
    The NDAA that we just passed and was just signed into law 
prohibits that activity from October 1, 2007, through September 
30, 2012, yet the President's budget calls for an additional 
2036 mil-to-civ conversion.
    How are you going to approach stopping those civilian 
conversions and restating, as the NDAA suggests--doesn't 
suggest, states clearly you should--those military billets that 
have been created in past fiscal years that will not be filled 
by October 1 of this year? Big challenge.
    Ms. Jonas. Mr. McHugh, thank you for that. I will be 
working with Dr. Chu on that. Obviously, we put together the 
budget prior to the passage of the NDAA, but we will clearly 
work with the Congress to address those. And I believe there is 
about $22 million associated with those conversions, so we will 
be working to get that resolved.
    Mr. McHugh. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman from Hawaii, Mr. Abercrombie.
    Mr. Abercrombie. Thank you, Mr. Chairman.
    Aloha to all of you. Thank you for coming.
    Mr. Secretary, you know that this committee, my 
subcommittee and the committee as a whole, has supported the 
competitive engine program for the F-35 Joint Strike Fighter.
    There was a failure.
    Are you familiar with the fact that the second engine test 
round failed on Monday?
    Secretary Gates. No. No, sir.
    Mr. Abercrombie. Okay. It did. This is the second failure.
    The issue for us is not with a specific company. I don't 
care what anybody says, and my members could care less about 
which company is involved. You have got Pratt & Whitney, you 
got the General Electric (GE) and so on.
    The point of this is, and the point that the Congress has 
made to the Pentagon--not just to you, but to your predecessors 
as well--is that we have to have competition for this because 
this is a highly sophisticated, highly technologically 
different challenge.
    And if you have only one source for procurement, if that 
doesn't work, then where are you?
    Now, we have had two failures in a row of the test engines. 
All I am asking here is will you reconsider--you don't have to 
give a definitive answer--we are asking you to reconsider the 
question of whether we can do the funding for a competitive 
engine and include this in our budget projections.
    I will tell you that I think our case has been made. This 
is not so much to say ``I told you so,'' or ``We told you so.'' 
That is not the issue.
    As you pointed out yourself, or I think the admiral did, we 
try things. Sometimes they succeed; sometimes they don't. This 
is not a matter of assigning blame or anything, it is a policy 
question.
    And so, I merely bring that to your attention, that the 
second failure I think speaks to the policy question of funding 
a competitive engine program.
    Now, maybe the second engine isn't going to work either. It 
may be because of the difficulties involved. Maybe we will have 
to reconsider what we do.
    But could I ask you at least, today, to take a look at the 
situation and perhaps reconsider the Department's stand with 
regard to the competitive program on the F-35 engine?
    Secretary Gates. I will certainly take a look at it, sir.
    Mr. Abercrombie. Thank you.
    Moving on to the question of the Future Combat System 
(FCS), I think there has been, not a misinterpretation, but 
people have their own reasons for what they do.
    When our subcommittee and subsequently the committee moved 
last year to reallocate funds--people talk about cutting funds 
from the Future Combat System. We did not cut funds from the 
Future Combat System--we reallocated, cut in the sense that the 
money then disappeared or took it out. On the contrary, we 
reallocated it on the readiness side.
    Now, I wanted to reallocate a heck of a lot more than what 
it ended up being. This is a legislature; it is not a 
theological seminary. So, I mean, that is the way that works.
    But we have now, and I am sure you are going to find, a 
great deal of advocacy for the Future Combat System in terms of 
expenditures for various companies and within the various--
various elements of the Army and et cetera on this.
    My point here is that I believe that we have to take a 
serious look at maybe what is working now, those things that 
are ready for manufacture, maybe, to move ahead, but that we 
need to take a serious look, given what has been outlined by 
the admiral and yourself today and what the budget reflects 
itself in terms of readiness, as to whether some of these 
projected systems for weapons modernization, especially for the 
soldier and Marine in the field, needs to have a second look. 
And this has to do with the financing system.
    Would you agree that perhaps we should not get into an 
argument that you are not supporting the military if you have 
serious questions about funding the Future Combat System with a 
blank check?
    Secretary Gates. I certainly agree with that. My 
understanding is, and I am going to ask Admiral Mullen to 
answer this question, but my understanding is that some 
components of the Future Combat System have already been cut 
and programs have been canceled.
    Mr. Abercrombie. Well, they slipped, would you agree? I 
hate to use the word ``cut,'' because it is like you said, 
``Well, we are ready to go and then they chopped us down.''
    Secretary Gates. My impression is that some of the programs 
have actually been canceled.
    Mr. Abercrombie. Okay.
    Secretary Gates. And my impression--it happened before I 
got here, so I don't know whether it was a decision inside the 
Pentagon or----
    Mr. Abercrombie. Because of the time, excuse me, Mr. 
Secretary, my request is that could we say that you folks are 
open to some further discussion about how we move in this area?
    Secretary Gates. Yes, sir.
    Mr. Abercrombie. Okay, thank you.
    The--oh, am I near the end? Okay.
    Let me just conclude, then, Mr. Chairman, very quickly.
    This whole thing revolves around our financing system--I 
bring it to your attention again. Whether it is future combat 
or anything else, Mr. Chairman, we need to have a capital 
budget and an operating budget.
    We need to have a new financing system for Defense, or 
these arguments about GDP and all the rest of it will just 
continue on into the future, and the readiness of this Nation 
and its strategic interests will be undermined unless we get a 
modern financing system for the DOD.
    The Chairman. Thank the gentleman.
    Mr. Thornberry from Texas.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Mr. Secretary, you made a comment a few minutes ago about 
how long it took to get our forces in place for Desert Storm.
    And I would like to ask for your reflections on whether the 
Department of Defense today is as agile and flexible as it 
needs to be to protect the country.
    And part of what leads me to ask about this is all of us on 
the committee, before your time, lived through the frustration 
of getting body armor and then the up-armored Humvees into 
Iraq.
    At the time, Chairman Hunter had to send a staffer out to 
one of the factories just to try to resolve some of the 
impasse.
    And then in the briefing material the staff gave us, I see 
notes about the Mine Resistant Ambush Protected vehicles 
(MRAP), which we finally came up with, where we have approved 
$16 billion for 15,000 vehicles.
    So far, they have made about 4; 2,500 of them have been 
delivered to the theater, but 1,800 are actually in use by the 
troops, which means that about 2,200, or roughly half of those 
made, or a little more, are still in the process.
    And then, of course, we are taking a new look at whether we 
really needed 15,000 to begin with or not.
    So, I, kind of, wonder if--or, based on that history, I 
wonder if we are yet as agile and flexible, responsive, as we 
need to, to changing circumstances?
    Secretary Gates. I think that, when one thinks of the 
Department of Defense, ``agile'' and ``flexible'' are not words 
that immediately come to mind.
    But I will tell you this, based on a long time of 
experience, sitting in the situation room and talking about 
what really matters here, and that is how fast can we move a 
certain number of troops to a certain area in the middle of a 
crisis?
    The Department of Defense is far more flexible and far more 
agile today than it was 15 years ago or 17 years ago or before.
    In those days, if you needed any kind of a force, anywhere 
in the world, within a few days or a few weeks, you either had 
to rely on the 82nd or the 111th. To get a regular brigade was 
a matter of months.
    That is no longer the case. With the changes that have been 
taken in the Department of Defense, over the last number of 
years, to modularize the Army, in particular, it is a much more 
mobile, much more expeditionary, much more agile force than it 
has ever been, probably, in our history.
    So I think that there has been significant progress in 
these areas. Do we have a lot more to do? You bet.
    Mr. Thornberry. Well, and I don't want to minimize that. I 
think a lot of the examples I was giving relate to the 
acquisition and fielding process. And hopefully, in your last 
year or so, if you have suggestions on what we can do to help 
improve that, then I think that would be helpful.
    I want to ask you about one other thing. Your comments at 
Kansas State University got a fair amount of attention. 
Because, basically, you had a Secretary of Defense saying, we 
need to pump up and make more effective these other instruments 
of national power, so that we don't have to use the military to 
do everything, which strikes a chord with me.
    I guess I would like to know what you can do, when you are 
talking about a lot of things that are outside your control.
    And we have, I think, talked with you before some about the 
interagency process. In your statement, you say, ``I support 
Secretary Rice's budget request.'' But, of course, it is not 
just about how much money we spend, it is about deploying 
people, it is about overall effectiveness, which are a lot of 
factors.
    So what can you do to make sure the military's not left 
holding the bag for all these other problems or lack of 
capability?
    Secretary Gates. Well, I can be an advocate inside the 
Administration. And, frankly, Secretary Rice is going to come 
up here with a request for 1,000 new positions for the foreign 
service.
    And my hope is that one consequence of my speaking out on 
this issue will create a more favorable climate here on the 
Hill for approval of this increase in the capabilities of the 
Department of State.
    The same way with the U.S. Agency for International 
Development (USAID). I don't know anything about their budget, 
except I do know that at the height of the Cold War they had 
15,000 employees and today they have 3,000. They were an 
expeditionary force during the Cold War. They expected to serve 
in developing countries, and they had a wide range of 
expertise. Now they are fundamentally a contracting agency.
    And I don't know if pumping up AID or recreating U.S. 
Information Agency (USIA) are the right things to do, but I do 
know we need to look at new institutions for the 21st century 
in terms of how we make use of the full range of national 
power.
    Thank you.
    The Chairman. Thank the gentleman.
    Gentleman from Texas, Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here.
    Mr. Secretary, I know this morning both Senator Sessions 
and Senator Nelson asked you about Terminal High Altitude Area 
Defense (THAAD), the delay in the two fire units or four fire 
units that are scheduled, that were scheduled to be deployed.
    The first two units will be deployed, but then the second 
two fighter units, three and four, will be delayed by one year.
    I just wanted to reiterate the concern that Senator 
Sessions and Nelson expressed to you, the fact that combat 
commanders are demanding that these capabilities be fielded. As 
there are no technical issues with them, they are part of a 
system that ultimately will protect our deployed troops.
    So I wanted to add my concern to you. And that is just a 
comment to you.
    I did want to focus on and ask you, because I know my 
colleague here brought up the issue of the Future Combat 
Systems. Last year, during your testimony to this committee, 
you stated, ``The costs of defending the Nation are high,'' and 
that the only thing costlier ``would be to fail to commit the 
resources necessary to defend our interests around the world 
and to fail to prepare for the inevitable threats of the 
future.''
    And I have seen some of these components. In fact, 
Congressman Abercrombie and I have had extensive dialogue on 
the different components of Future Combat Systems. We have 
had--and I have talked to soldiers numerous times, because it 
is being field-tested at Fort Bliss in El Paso.
    And some of these components that they have tested would be 
important--in fact, they have told us and have testified before 
our committee that these components would save lives. They 
include cameras that they can leave behind, systems that will 
be able to tell them where the threats are inside of a 
building, and many other things that are viable and part of 
what we could deploy our troops with.
    And on numerous occasions, veterans of both Afghanistan and 
Iraq have told us they would be important to have that 
capability today in Iraq and Afghanistan. They would save 
lives.
    So my question, since the Army has said that this is 
critical to the future capacities of the Army--they have 
testified in our committee--I am interested in what your views 
are of the Future Combat System?
    And how will you support the Army to be able to keep the 
combat systems on track?
    And we can talk about the weapons that are out-year 
weapons. But I am talking about weapons that the soldiers have 
already tested, that have already told us would be critical and 
essential to have those kinds of capabilities, today, in places 
like Iraq and Afghanistan.
    Secretary Gates. One of the things that I have been told 
about the FCS system, that I found very encouraging, was that, 
as these technologies are being developed, the Army is spinning 
them into the actual force, that they are not waiting for this 
thing to come all up.
    If there are some specific capabilities that have been 
tested and ready to go and have not been put into the process 
yet, I think it is worth our having a conversation about that 
and talking to the Army, to see what they can do.
    Mr. Reyes. And again, that--to me, that is vitally 
important, because I don't think there is more powerful 
testimony than that of the soldiers that have actually used 
these capabilities and have had to deploy back to Afghanistan 
and Iraq, without them, simply because we haven't been able to 
integrate them into the system.
    So I would ask your support on that. And I would be happy 
to be part of the dialogue, along with Congressman Abercrombie.
    Secretary Gates. Sure.
    Mr. Reyes. Thank you. Thank you, Chairman.
    The Chairman. I thank the gentleman. It appears, Mr. 
Wilson, you are next.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you, Admiral Mullen, for being here today, and 
thank you, Secretary Jonas, for your service.
    And I just want to give my perspective. As a member of the 
Services Committee, I am very grateful. In the district that I 
represent, we have Fort Jackson, Parris Island, the Beaufort 
Marine Air Station, Beaufort Naval Hospital.
    And as I visit all of these facilities, I am so impressed 
by the quality of training the persons are receiving and the 
commitment of the young people who are serving our country.
    Additionally, I am very grateful, as a veteran. This past 
year, I have had the opportunity, every 3 months, to visit in 
Afghanistan with the 218th Brigade that I served in for 28 
years.
    And so I know firsthand the 1,600 troops serving from my 
home state. South Carolina is very proud. This is the largest 
commitment of troops from South Carolina since World War II. 
And the people of South Carolina are so thrilled at the 
leadership of General Bob Livingston and the activities of the 
218th training Afghan police and army units.
    And when I visit in Afghanistan and Iraq, I go over, 
hopefully, to encourage the troops, but they inspire me.
    And then, finally, I want to thank you as a parent. My 
wife's done a great job. We have four sons serving in the 
military. And I am very grateful. Two have served in Iraq. And 
so we firsthand, as a parent, the leadership of both of you. 
And I want to thank you.
    As we look ahead, the Commission on the National Guard and 
Reserve issued its final report on January 31, and cited a 
substantial deficiency in the Nation's readiness to respond to 
weapons of mass destruction attacks.
    Do you agree with the commission's assessment?
    What actions do you believe are needed to improve DOD's 
capabilities in the area?
    Secretary Gates. Well, let me respond first and then invite 
the admiral.
    I have not read the report yet. I think it was worth 
nothing that, when the interim report was presented to us some 
months ago, in the interval between General Punaro presenting 
those recommendations, 23 recommendations to us then, we have 
already implemented 20 of the 23 recommendations made in the 
interim report of the commission.
    So we will certainly look at it with an open mind.
    That said, I think the committee needs to know that we have 
in this budget and the out-year budgets pretty close to $47 
billion for equipment for the National Guard between 2007 and 
2013. And in the next 24 months we will push out $17.5 billion 
worth of equipment to the National Guard, including 
helicopters, something like 16,000 trucks, and a variety of 
other modern equipment.
    The important thing about the new equipment going to the 
National Guard is, for the first time, it will be the same 
equipment that the active component of the force is receiving. 
So there is a significant qualitative implement as well.
    In 2006, the fill rate for the National Guard across the 
country was about 40 percent. The historical norm is 70 
percent. It got up to about 49 percent at the end of last year. 
It is at about--we hope to get it to about 66 percent this 
year, and then into the low 70's by 2009, 2010, and then to the 
goal right now of 77 percent for the National Guard--Army 
Guard--and 90 percent for the Air Guard.
    So there is a very robust program in place right now, and 
in the 2009 budget and in the out-year budgets, to begin 
redressing these problems that have been identified with the 
National Guard.
    Mr. Wilson. Additionally, I have been long concerned about 
the 15-month deployments for the Army, and so I am happy to 
hear the change to 12 months. I was actually impressed on my 
visits to the Middle East to see the Air Force units, the Navy 
units at 
three-, four-, six-month rotations, because of their 
extraordinary level of training and the good equipment they 
have. The same can apply to the Army.
    When will the 12-month deployments begin?
    Admiral Mullen. In fact, that decision hasn't been made, 
but all of us believe we have got to get away from that as 
rapidly as we can, and that is being evaluated now by General 
Casey and it is due to come up the chain here.
    I don't expect any decisions with respect to that to be 
made until after the spring, when we really understand what the 
laydowns--where we are headed for the future laydown, 
specifically in Iraq.
    But I--General Casey has said that even at 15 months it 
looks like it is going to be possible to do that, we really 
need to understand. And you would know this with four serving 
individuals in your family, we want to get this right, we don't 
want to--we want to make sure that whatever changes we do make 
are in fact going to happen exactly as we stated.
    So very thorough study looking at that right now, and then 
I think a decision to be made potentially later this year 
sometime.
    Mr. Wilson. Again, thank you for your service.
    I yield the balance of my time.
    The Chairman. The gentleman from Arkansas, Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being here.
    And, Secretary Gates, while this is your last budget 
posture hearing, I think it is the beginning of a very 
significant year in the history of this country and your 
service, and I am glad you are in the position you are.
    I have one specific question I want to ask you that you 
probably will not be able to answer, but if you would check on 
it, please.
    Part of it, as we are looking ahead at the future, is it is 
not just equipment; it is the nature of personnel and the 
skills that they have. And there has been a lot of concern, 
particularly since September 11th, 2001, about foreign language 
skills.
    On 30 January, your department, Secretary Gates, put out a 
press release about the title--``DOD Begins Recruiting for 
National Language Service Corps Pilot.''
    And this is a program that was authorized in 2006. The 
press release has a quote from Dr. Chu that says, ``This is an 
excellent opportunity for Americans with unique language skills 
to serve their country when and where they are needed the 
most.''
    And at the end of it, it gives a Web site where you can go 
on and sign up to volunteer. Well, I did it, like, the 1st of 
February and had my staff do it since I have been sitting here.
    And you go on the Web site and it says, ``Apply now,'' and 
you hit ``Apply now,'' and it says, ``Coming soon.'' 
[Laughter.]
    Now, you know, I mean, my response is yours, which is, 
well, this is, as you pointed out, DOD is probably not noted 
for agility and flexibility.
    But you know what that is? That is, if you have got some 
young person out there, and I have relatives like that, and 
they go on that Web site, what does that tell them? It is a 
joke. Their skills aren't valued. It is just going through the 
motions.
    And I would hope that--I don't know if this is contracted 
out, but that is the kind of thing that I just think is--does a 
great disservice to the kind of goals that you have for this 
Department, Secretary Gates, the kind of skill-sets you want, 
Admiral Mullen.
    And, you know, I don't know what that means, but somehow 
``Coming soon'' ought to be rectified.
    I assume it is fair to say----
    Secretary Gates. Sir, it is either going to be fixed, or it 
is going to come down.
    Dr. Snyder. Yes, I think that would be--and, of course, the 
bigger question is, a program authorized in 2006, and here we 
are at the beginning of 2008 and it is coming on board. It 
seems a bit late.
    Secretary Gates. On foreign languages, if I might--go 
ahead----
    Dr. Snyder. My second specific question is, we have 
authorized a National Guard reintegration program--colonel--
Congressman Kline, formerly Colonel Kline of the Marine Corps, 
was a big part of that.
    It is my understanding that you all are committed to 
finding funding for that National Guard reintegration program--
what the National Guard Bureau I think is calling: Beyond 
yellow ribbon.
    Do you know what the status of that funding is for that 
program?
    Or do you, Ms. Jonas?
    Ms. Jonas. I don't but I would be happy to find out for 
you. But I will absolutely do that.
    [The information referred to can be found in the Appendix 
beginning on page 106.]
    Dr. Snyder. Would you get back with us?
    I think it is something that is important to everyone. And 
the problem is, I think you are counting on it for supplemental 
funding. I just don't want it to get lost along the way because 
the National Guard Bureau can't do anything about the program 
until it is funded.
    One comment, Secretary Gates--this time last year, you and 
I were having a discussion about research in the defense 
budget, which I don't think did a very good job last year in 
presenting the research needs of this country.
    This here is in your written statement, you formally talk 
about research and I assume had took it to heart that research 
was important to you as both a former--a person committed to 
national security, but also a former college president.
    I assume you are satisfied with the level of funding for 
research.
    Secretary Gates. I do listen. And the total dollars for 
fiscal year 2009 for basic research are up, I think, about $260 
million over last year, and will be up over a billion dollars 
for the Future Years Defense Program (FYDP).
    Dr. Snyder. I think it is pretty important.
    My final line of question here--I wanted to pick up on 
where----
    Secretary Gates. Your voice, by the way, was joined by a 
number of university presidents last year.
    Dr. Snyder. I wanted to pick up a little bit on where Mr. 
Spratt left off, although he is our, probably, national expert 
on all these budget questions.
    But since I have been sitting here, I got an e-mail from--
actually forwarded to me by my wife, who is a minister and gets 
in this kind of social service network--a group of people in 
Arkansas very concerned about the cut in the budget in hospice 
care.
    So, we are increase your budget and we are--the President's 
budget proposes a cut in hospice care, is your interpretation, 
at a time when the expenses in medical care and the cost of 
hospice are going up and nobody is thinking us baby boomers are 
going to go away any way sooner, and need for hospice care is 
going to go down.
    So there are hard choices there.
    My concern is, it seems like within your budget that this 
is a budget that avoids hard choices, that punts the hard 
choices to the future.
    At a time when we are increasing personnel and wanting to 
bring on new technology and wanting to be sure we have the 
technological edge, you are proposing a budget over the next 
several years that goes down in real dollars.
    Isn't it fair to say that this budget punts hard choices to 
the next Administration in a very dramatic way?
    Secretary Gates. Well, one of the things that we have to 
address--I mean, we will, this Administration will put together 
the fiscal year 2010 budget, and it will be reviewed and 
probably changed and then executed--reviewed by the Congress as 
well as the new Administration and then executed.
    But I think that as we--I mean, I have taken it on that I 
need--I think we need to leave them a budget that we have put 
together that sets some markers in terms of what needs to be 
done.
    I think that going forward, going back to the earlier 
conversation, going forward, we should not leave the next 
Administration a budget that has negative growth in the Defense 
Department.
    And I think that we are going to have to address some of 
those issues----
    Dr. Snyder. Thank you.
    The Chairman. Thank you, gentlemen.
    Mr. Akin from Missouri.
    Mr. Akin. Thank you, Mr. Chairman.
    And I just had two different topics, and not related at 
all.
    One had been touched on I think several times earlier this 
afternoon, that was the Future Combat Systems and research. I 
have been somewhat familiar with that, and I used to work for 
IBM. And there is a tremendous amount of research that we have 
invested in some--what looks on the surface like you just don't 
see where the money is going.
    Fortunately, this year, a lot of that research is going to 
be coming together and we will actually get pieces of equipment 
in the hands of the warfighters. So I hope that you would 
remain openminded.
    It is the only major Army modernization that is pulling all 
of these platforms into one, as opposed to individual fix this 
tank or this cannon or something.
    So that was sort of more of an advertisement, I suppose, 
but I just hope that you will keep an open mind to what the 
warfighters are saying when we actually spin that equipment 
into their hands.
    The second one is kind of a gotcha. I don't mean to do 
this, except that we have had a staff that has been working 
this for about six months, and we feel like Defense has stiff-
armed us a little bit.
    So all you got to say on this is, ``I hear what you are 
saying and I will help on it.''
    But let me give you that there is a piece of law that is 
written here, and it is in Title 10 of the Armed Forces, 
Subtitle A, and I can give you the rest of the reference. It 
says this: ``Prohibition of sale or rental: The Secretary of 
Defense may not permit the sale or rental of sexually explicit 
material on property under the jurisdiction of the Department 
of Defense.''
    Now, the problem is, we have PXs all over the place. My 
staff went to Fort Belvoir, and has a couple of samples. If 
there is any doubt in anybody's mind, we have got this sexually 
explicit material literally almost one hand away from the 
``Veggie Tales'' section down there.
    Now, the law expressly says we are not going to be doing 
this. And I would hope that you would say, Secretary, you would 
say, ``Well, we will take a look at that and try to get rid of 
that.''
    But I am going to let you say what you are going to say.
    Secretary Gates. Well, it is news to me. We will take a 
look at it.
    Mr. Akin. If it is--if you do find that this is being sold, 
will you bring things into compliance with the law here, sir?
    Secretary Gates. I think it is critically important that 
the Department obey the law.
    Mr. Akin. I am just reminded of General Washington, as he 
journeyed up to Massachusetts and took command of the troops 
there, just after the Battle of Bunker Hill, and he set a high 
standard for our troops. I hope that we keep that same high 
standard.
    Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Gentlelady from California, Ms. Tauscher.
    Ms. Tauscher. Thank you, Mr. Chairman.
    Mr. Secretary, Under Secretary Jonas, Admiral Mullen, thank 
you so much for being here. Thank you for your leadership.
    An aggressive approach, Mr. Secretary, on focusing 
especially our NATO allies on our efforts in Afghanistan, which 
I think shows too many signs of backsliding.
    I have been a long advocate of increasing the size of our 
military. I am pleased to see that you are growing the Army and 
the Marines in its budget. Thank you very much.
    I also want to commend you for the imperative that you are 
taking and the strong steps that you are taking to achieve 
better dwell time ratios.
    The bill that I sponsored in the House to urge the Pentagon 
to just achieve its own stated policy passed overwhelmingly. 
And I listened very closely to what Admiral Mullen said about 
your efforts to achieve this, and I think that there is no more 
important thing we can do for our military, our readiness, or 
military families than to get dwell time back to where it needs 
to be.
    Two things concern me; one are the signing statements that 
the President has been signing and the status of forces 
agreement (SOFA) that we are apparently negotiating with the 
Iraqis. And they dovetail in some ways, particularly because I 
think that these signing statements very disturbing.
    And I think that you have to hear from us that, as you have 
just said, the law is a law. And constitutional statute is not 
optional. And I think that the President needs to understand 
that these signing statements may be whimsical for him and they 
may be what he really thinks he can do as an assertion of 
executive power, but the law is the law.
    And when we pass the law and he signs it, that is it. And 
signing statements may have some political rhetorical point of 
view for him, but he needs to hear from us that they don't mean 
anything and the law is the law.
    On the status of forces agreement, Mr. Secretary, can you 
assure us that the Congress will be involved to the extent that 
there will be no permanent bases in the things that--and this 
is one place where, by the way, the signing statement and what 
the status of forces agreement apparently could be negotiating 
is very important.
    I mean, we have passed in the House a very strong 
legislation that there will be no permanent bases. The 
President had a signing statement basically saying he is going 
to do what he wants.
    But we have the status of forces agreement that is being 
negotiated that we want to have some input into, especially 
since it has very long-term effects.
    Can you give us some reassurance as to what you think the 
status of it is, and anything else that you can do to reassure 
us that we are going to be part of it?
    Secretary Gates. First of all, let me say that we do not 
want, nor will we seek permanent bases in Iraq. I don't know 
the specifics about the signing statement except that I suspect 
it was more on constitutional grounds than it was on the 
substantive issue of the bases in Iraq, because the President 
and Secretary Rice and I have all been explicit that we do not 
want and will not seek permanent bases.
    I would also tell you that the status of forces agreement 
will not contain any commitment, any security commitment to 
Iraq. And I believe that the Administration has committed to an 
open and transparent process in negotiating the SOFA in 
consultation with the Congress so that the Congress is aware of 
what is being negotiated in the SOFA.
    We have at any given time 80 to 100 SOFAs, none of which 
have been submitted for ratification. But in light of the--
particularly in light of the sensitivity of this issue, it 
seems to me that transparency and openness as we go through 
this process is important.
    Ms. Tauscher. Thank you, Mr. Secretary.
    I think your comments about Afghanistan and the need for 
NATO allies and the publics and the parliaments, the gap 
between the governments, the public's and the parliament's and 
people's appreciation for not only how important it is for the 
alliance for us to get Afghanistan righted and for the people 
of Afghanistan to have the opportunity to live in peace and 
prosperity, but that for NATO it is one of those situations 
where the rubber meets the road.
    And I wish you very good luck in Vilnius and in Bucharest. 
I think that this is fundamentally a test for our capabilities, 
not only for diplomacy, but for our ability to have the finest 
alliance in the world, defense alliance in the world, NATO, 
actually stand up and do what it is meant to do. And I know 
that you have been working very hard on that.
    I do think that Congress is important in working with the 
publics and the parliaments of our NATO allies. And I 
appreciate your efforts to have that happen.
    And I yield back the balance of my time.
    The Chairman. I thank the gentlelady.
    Let me remark there is a difference, is there not, Mr. 
Secretary, between a status of forces agreement, on the one 
hand, and a security agreement with an ally, on the other hand?
    Secretary Gates. Yes, sir, that is certainly my 
understanding.
    The Chairman. It is my position, our position, this 
committee's position that a security agreement--not a status of 
forces agreement--a security agreement should be in the purview 
of Congress in whatever proper legislative force it should take 
for us to approve. And that was expressed in our bill as was 
just pointed out.
    We will now take a 10-minute break. I will ask the audience 
to stay seated until those at the counsel table can retire to 
the anteroom, and then we will return in 10 minutes.
    [Recess.]
    The Chairman. We will come to order. We will continue until 
five o'clock, when our secretary and chairman must depart.
    Mr. Cole from Oklahoma.
    Mr. Cole. Thank you, Mr. Chairman.
    Well, first, Mr. Secretary, Admiral Mullen, Secretary 
Jonas, just thank you very much for your service and the job 
you do.
    And I must add on a personal note, as the sort of 
reluctantly proud Oklahoma father of a Texas A&M graduate 
student----
    [Laughter.]
    Mr. Cole. Thank you for the wonderful job you have done at 
that institution.
    I had my first visit there to watch Texas A&M play at the 
University of Texas football game this year, and somebody asked 
when I came back home to Oklahoma did I feel out of place. And 
I said, ``No, if I could be surrounded by 80,000 people 
hollering `Beat Texas,' it just feels right at home to me.'' 
And you guys did, so wonderful job.
    Two quick questions, if I may. And I don't want to drag us 
too deeply back into the thickets of FCS, but I have got 
similar concerns to what my subcommittee chairman, Mr. 
Abercrombie, expressed about, number one, how you see things 
moving forward, particularly on one of the component parts--the 
National Logistics Support Center (NLSC) cannon. I have got 
Fort Sill in my district.
    That is a very important weapon system, regardless of 
whether it is integrated into the FCS.
    So I am just wondering how any cutbacks might, in your 
view, affect the continued development and deployment of that 
particular system.
    Secretary Gates. I don't--we will have to get back to you 
on that with an answer for the record, sir.
    Mr. Cole. I would appreciate that very much, Mr. Secretary. 
Second thing then, not to take too much time, I am also got a 
concern about just any funding shortfalls with Base Realignment 
and Closure (BRAC), and I am very interested in how you see 
that process unfolding since we haven't really given you the 
amount of money that has been requested.
    Do you see any particular delays or problems moving 
forward?
    Secretary Gates. Yes, sir. I would tell you have some real 
problems with BRAC.
    Last year, in fiscal year 2007, we had--we operated under 
three continuing resolutions eight months into the fiscal year. 
And the result was that billions of dollars could not 
allocated--or could not be spent or contracted for with respect 
to BRAC until we received the entirety of the money in May.
    In fact, we only had--as of May, we only had received $2.5 
billion out of, I think, $5.6 billion.
    We operated under a continuing resolution this fiscal year 
for the first three months of the fiscal year, which further 
delayed the BRAC. We have a consolidated bill for the base 
budget for 2008--correct me if I get this wrong, Tina--is for 
about $8.2 billion, and that was cut by nearly $1 billion.
    Now, we have a statutory requirement to complete BRAC by 
2011. And so I would say that this kind of goes back to my 
answer to an earlier question about some of the difficulties 
imposed by the way that budgets have been being approved and so 
on, is that this is one of the areas that probably has been 
most affected. And we are going to be--we are going to have to 
work very, very hard to meet the statutory deadline for BRAC 
under these circumstances.
    Mr. Cole. Do you have any concerns, Mr. Secretary, along 
those lines that we might effectively undo the BRAC process by 
simply not funding it completely? I mean, obviously there is a 
lot of pain associated with that.
    Secretary Gates. Well, sure, because so much of this is all 
interrelated in terms of bringing troops back from Germany. The 
question is, have the facilities been built for them in Texas 
or someplace else where they are going to be assigned? As you 
move these units around, as you try to consolidate, all of 
these things are impacted. And as much as anything in our 
budget, it is all a very--it is all interleaved together in a 
way that, if you pull the string over here, you are going to 
create downstream impacts in a lot of different places.
    Mr. Cole. I just want to add for the record, it also 
creates enormous problems for local communities that are trying 
to determine how to receive additional people that might be 
coming, everything from school systems to housing off base and 
those type things.
    It makes civilian planning extraordinarily difficult, too. 
And I know the communities that are receiving additional units, 
frankly, want those units to be well looked after and well 
cared for.
    So just thank you for your continued attention on that. And 
thank you again for your service.
    Yield back, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Ms. Davis from California.
    And I might add that everyone is doing very well on the 
five-minute rule, so we will get everyone in.
    Ms. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    Thank you, Admiral Mullen, Secretary Gates, for being here, 
and for your extraordinary service. We appreciate it greatly.
    I wanted to go to one or two health care questions. And my 
colleague earlier mentioned the military-to-civilian 
conversions. And I know it was said that we are looking at it, 
we didn't anticipate that there would be this problem, but I 
think we really signaled our interest in freezing those 
positions quite early on.
    And so I just want to make a strong point that I guess I 
would say we don't appreciate the fact that it is not in sync 
with the law that was passed. And we have concerns that, in 
fact, we have many men and women who could go back and could 
serve in those positions, who have been hurt and disabled, in 
some cases from Iraq and Afghanistan, and we want those 
positions available for them.
    We hope that you will take a strong look at it, and I know 
that the Pentagon position was different from the Congress's 
position on that. So it may have been an oversight, but on the 
other hand, there may have been some method to that madness, 
and I want to just state that quite clearly, that we are 
concerned about it.
    The other issue really goes to the budget request, which 
contains $41.6 billion health care, and that assumes the $1.2 
billion in assumed savings.
    A lot of that assumed savings is based on the fact that we 
expect people will not elect to take benefits. And I am 
wondering how you see that, because, in essence, you know, the 
fiscal year 2009 budget is flat; we know that medical cost 
growth inflation is growing at about six to seven percent a 
year.
    So, if this is less than one percent, how can the 
Department ensure us that the budget protects access to quality 
health care, particularly the needs that we have, and also 
assuming that we have great need for mental health services, as 
well, ready and easily available and accessible to our men and 
women?
    Secretary Gates. Let me just make a couple of comments and 
then ask Ms. Jonas to respond.
    First of all, we really need to work with the Congress. 
Health care is eating us alive. Our health care budget in 2001 
was $19 billion; our request this year is for almost $43 
billion.
    And I know there has been some concern about our desire to 
have some kind of a co-pay for working-age military retirees. 
The truth is, there hasn't been a single increase since the 
program started in the 1990's.
    So we, together, have a real problem, and by 2011, 65 
percent of our health care expenditures will be for retirees, 
not for the active or reserve force.
    Tina, would you answer them?
    Ms. Jonas. So I appreciate the question. And you are 
correct, the budget does assume some fees and co-pays, about 
$700 million there, and about $500 million associated with 
reduced usage.
    But as the secretary said, the recommendations of the task 
force report, which you may have read, but that was what this 
budget is based on, recommendations 9 and 10, and we fully 
expect to work with this committee and the rest of the Congress 
to figure out how we can move forward on this without any 
deterioration of the benefit.
    It is a great benefit. It is so important to our men and 
women in uniform. And so we want to make sure that we are 
properly engaged with the Congress to assure that we can 
sustain this benefit for the long haul.
    Secretary Gates. I would just add, I just met with a group 
of military spouses at Fort Campbell last well, and health care 
issues were by far the biggest single issue that they raised.
    Mrs. Davis of California. Mr. Secretary, I would agree with 
that. When I meet with the spouses in San Diego, that is their 
number one issue, and for a good reason, because they feel that 
they are not getting the benefits that they signed up for.
    Secretary Gates. And nine-hour waits in emergency rooms----
    Mrs. Davis of California. Exactly. That is very difficult.
    And so I think what we are going to be trying to do on the 
Personnel Committee actually is looking at the way we deliver 
health care as well, how we coordinate even within the 
community, and with the Veterans Affairs (VA). And I am not 
sure that we can necessarily crack that whole question, but it 
does go to the heart of how we deliver that can, can we do it 
in a more efficient way.
    Can I just very quickly, I wanted to mention, Secretary, 
that I appreciate very much the work that you are doing on the 
interagency, looking at the Provincial Reconstruction Teams 
(PRTs), how they are delivering services.
    We know that many lives would have been saved if we had 
been organized in such a way to have the civilian force come in 
with the kind of energy and the kind of skill sets that are 
sorely needed.
    But I do want to ask if you could comment on this. There 
are many pressure points to get--to accomplish what I think 
five years out from now we would like to accomplish. One of 
those big pressure points is in the executive branch.
    And I think you mentioned earlier that you are counting on 
the next Administration to fix this problem.
    How important is that? I mean, can the Congress and can 
others proceed without strong backing by the executive in order 
to make this happen?
    Secretary Gates. No. And quite honestly, I think it would 
be a real mistake. I think that the executive branch needs to 
come up with proposals that it can put in front of the 
Congress.
    But my experience, when the Congress tries to organize the 
executive branch, it often doesn't work out very well.
    And so, my view would be that there ought to be a great 
deal of pressure from the Congress on the executive branch to 
come up with some proposals, and then have a dialogue between 
the executive branch and the Congress, and then probably--in 
fact, almost certainly, statutes would be required to enact 
whatever changes in structure were made.
    The Chairman. Thank the gentlelady.
    The gentleman from Ohio, Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    And let me join everyone's thanks for each of you for your 
service and your work.
    My first question concerns the Air Force. I continue to be 
concerned about the reductions in personnel for the Air Force. 
We are aware, of course, that the reductions in end-strength 
are largely designed to address a plan of recapitalization.
    They are not based upon a reduced threat. They are not 
based on a needs assessment that indicates that we need less 
personnel in the Air Force.
    I think everyone remains concerned about these reductions, 
and then also of the needs for additional investment in the Air 
Force and its recapitalization efforts.
    But, Secretary, could you speak to a moment about the 
reductions that are occurring in the Air Force and the concerns 
you might have?
    Secretary Gates. Well, I think the Air Force--I think 
Admiral Mullen may be in a better position to answer this than 
I am.
    But my impression is the Air Force is taking another look 
at this, in part for the same reason the admiral mentioned 
earlier, and that is with the increase in the end-strength of 
the Army and the Marine Corps, what are going to be the 
additional burdens on the Air Force going forward.
    Admiral.
    Admiral Mullen. I just--actually, having gone through this 
in the Navy over the last several years in a way that we really 
did try to measure how many we were going to need for what 
capabilities, and I think it hits at the health care issue and 
the overall cost of our people, which is how are we going to 
resource for our people in the future as costs continue to 
grow?
    Even in the Navy, while we were taking people out, in fact, 
we were having to put more money in.
    So, in fact, we weren't really taking that money and 
investing it. And I think that is a very difficult challenge 
for the Air Force now, as well.
    I have spoken with General Moseley. I know that he is 
concerned about this and that he may have come down too 
quickly. I think this budget gets him to about $316 billion.
    The Air Force has not been allowed to retire a lot of old 
airplanes. They need to do that. They have been restricted 
because of legislation, that they are having to invest money in 
that, that they need--we need, I think, to be investing for the 
future.
    And their recapitalization program has suffered for lots of 
reasons, not the least of which is not able to do that, as 
well.
    So I think the goal was a good goal initially. I worry 
about the ability to execute it, and then the pressure that is 
now there to--whether $316 billion is too low or he should go 
to $330 billion I think is what he is talking about, even 
though it is $316 billion in this budget. But that is another 
billion or billion and a half dollars worth of personnel funds 
that would have to be found somewhere to fund that.
    So, it is a very tough problem that the Air Force is in in 
that regard, and we need to review it and really look at what 
the right way ahead is.
    Mr. Turner. Thank you. I appreciate your comments in that 
regard, because I know everyone has remained concerned as to 
that number being too low.
    Mr. Secretary, you were talking about health care costs. 
Last year, as we all looked at the issue of Walter Reed, 
subsequently, Dole/Shalala came forward with recommendations, I 
know many of which had bipartisan support.
    Could you tell us how those recommendations are being 
implemented and how that is moving forward?
    Secretary Gates. I would be happy to have Secretary England 
come up and brief you in detail, but in brief, all of the Dole/
Shalala recommendations that we can implement on our own have 
already been implemented or are being implemented.
    And then there are several of their recommendations that 
require legislation, and that legislation is here on the Hill.
    Mr. Turner. I also want to echo Tom Cole's comment on BRAC. 
I appreciate your acknowledgement of the pressure of the 2011 
deadline as a result of delays in funding.
    If you could keep us all posted as to how you see timelines 
slipping, it would be appreciated.
    One concern that I have is that the delays in funding 
approval might result in timelines slipping, and then if you 
are not telling us soon enough, it may appear that it is a 
result of your performance and not the delays in funding that 
has occurred, which could then result in requests for review of 
the BRAC recommendations themselves and whether or not they 
should be implemented.
    So, I would appreciate your letting us know as you see 
those timeframes moving and the impacts as a result of the both 
delayed and reduced funding that you have received.
    Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    I have a few questions on the same topic, and that has to 
do with this discussion about defense spending ought to be four 
percent of the GDP. And I am not bought into that concept, I am 
not bought into that it should be three percent or that it 
should be five percent of GDP.
    The problem that I face when I look at that question is, 
for instance, this year, if we are in a recession or are 
technically in a recession or even if we have lower growth and 
our GDP doesn't increase as much as some people want it to, you 
will all be back next year saying, ``What we meant to say was 
five percent of GDP.''
    That is, it doesn't seem to me to be a very useful metric 
for what defense spending ought to be. And this is a debate 
that does go back farther than three years ago, went back and 
had this debate during the 1960's as well.
    So I was wondering if you had any discussions about other 
metrics that seem to be less random and more solid about what a 
defense budget out to be. That is the first thing.
    The second thing, and it is related, is that every year 
Government Accountability Office (GAO) puts out their report on 
major defense acquisition programs, MDAPs, and it makes it very 
difficult for some of us to, when we look at the problems that 
exist in major defense acquisition programs, to say, ``Sure, 
have four percent of GDP and we don't care how it is spent,'' 
even though we are told every year that there are acquisition 
programs that are over budget, that are not on schedule, and 
yet we ought to just sign off on four percent of GDP for the 
defense budget--or any percentage for that matter. Let us get 
off the four percent, just any percent.
    So are there other metrics you have been considering?
    And second, how would you square having a set percentage of 
GDP when we have to deal with these major defense acquisition 
programs that tend to be sometime over budget and off schedule?
    Secretary Gates. Let me give you an answer and then ask the 
admiral to chime in.
    First of all, I think I am not quite--you know, I wouldn't 
bet my life on the fact four percent is the right number. That 
seems to be a number that more people talk about than any 
other, on both sides of the aisle, and executive branch and 
legislative branch.
    The two things that I think are the most important, as you 
think about the Defense budget philosophically is, ensuring 
absolute, real growth and predictability.
    The biggest problem I mentioned elsewhere this morning--if 
you were to graph the Defense budget for the last 40 years, it 
would look like the electrocardiogram (EKG) of a fibrillating 
heart.
    And it is that lack of predictability, frankly, that 
creates some of the acquisition concerns and problems, as well 
as, I think, significant additional expense.
    Because if I knew--if I am worried that the Defense budget 
is going to go off a cliff in two years, then I am going to 
hurry to try and get something done.
    If I know that there is going to be some steady growth rate 
over a protractive period of time, then I can plan properly and 
manage better.
    So, philosophically, I think predictability and real 
growth, and particularly for investment, is very important.
    In terms of acquisitions, I encourage you all to have our 
new Under Secretary for Acquisition, Technology, and Logistics 
John Young come up and talk with you, because John has put in 
place a number of changes in the way we approach acquisition 
that I think are going to mitigate, considerably, some of the 
problems that we have had.
    You know, all the studies that have been written on 
acquisition in the Department of Defense could fill this room, 
probably. But I think John has got a very solid approach to it.
    One of the concerns that I have that we--where we bear a 
mutual responsibility is that from 1990 to the present, the 
Defense Contract Management Agency was reduced from 24,000 
people to about 9,000 people.
    As of even the end of 2007--or the end of November, 2007, 
we have 63 contract specialists in Iraq; thanks to the actions 
of the Secretary of the Army, we now have over 300.
    So we do have a personnel problem. Those involved in 
acquisition programs in the Department of Defense, all 
together, dropped from over 600,000 people to under 300,000 
people over a 10- or 15-year period.
    Part of that was four successive National Defense 
Authorization Acts that mandated reducing 95,000. We did the 
rest as part of budget cuts.
    So I would say personnel and process. And I think we are 
beginning to address both of those.
    The Chairman. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen and lady, for your service and for 
being here today.
    You know, I have a son who is in the United States Army 
serving in Afghanistan, but he was raised in a Marine family. 
And he will be very pleased to see 3,000 U.S. Marines arrive in 
Afghanistan.
    Having said that, Mr. Secretary, I again wish you good luck 
in your talks with our NATO allies. We really need to fix that 
shortfall.
    And I know you know that better than anybody. So good luck.
    Admiral, you said in your statement, ``Too many of our 
warriors suffer in silence.'' And so we have moved forward with 
the Wounded Warrior program, for example.
    As Dr. Snyder said, in the 2008 NDAA, Section 582, we 
established the Yellow Ribbon re-integration program to help 
our members of the National Guard and Reserve who are coming 
back from extended deployments re-integrate into their civilian 
jobs and civilian lives and have somebody kind of look at them 
and make sure that, if they are suffering in silence, there is 
somebody there to help them get through.
    So I would reiterate Dr. Snyder's question to Ms. Jonas. If 
you can find for us wherever it is in the President's budget 
that funding is for that program, it would be helpful.
    Ms. Jonas. I think we have the answer for you, sir. And we 
would be glad to talk to you in a minute.
    Mr. Kline. Okay. And then, Mr. Secretary, one more note on 
that program. The law now states that the Under Secretary of 
Defense for Personnel and Readiness shall establish the Office 
for Reintegration Programs within the Office of the Secretary 
of Defense.
    I would only hope, sir, that you will move with some 
alacrity to make sure that that is done and that the 
coordination that is called for in here with the National Guard 
is moving forward--and we are not talking about this next year. 
I know this is your last statement, but your successor--about 
how we didn't get that thing going.
    We have soldiers right now that are coming back that really 
do need this program.
    And then finally, sir, I am just very sensitive to your 
comments and agree with you wholeheartedly about how hard it is 
to manage the Department week to week with the uncertainties in 
our budgeting process and in our appropriations process.
    Last year, we were in some lengthy discussion, debate over 
the $70 billion of supplemental funding and you advised us that 
without that money arriving by a certain date, the Department, 
you, sir, would be required by statute to send out letters to 
civilian employees advising them of the potential furlough.
    We are looking, again, in the not too distant future of 
needing supplemental funding and I would guess that there are, 
again, impacts that will occur if we don't get that money.
    So I am asking you for some--do you have any specifics? Are 
you looking at a time here where you, again, may have to look 
at sending out such letters? Are there other specific impacts 
that you can relate to us so that we and our constituents and 
the American people can clearly understand the impacts of not 
getting that supplemental funding to you in a timely fashion?
    Secretary Gates. Let me ask Ms. Jonas to address that.
    Ms. Jonas. Thank you, Mr. Kline.
    Specifically, in the conversation with Mr. McHugh earlier, 
we talked about the reset fund. So that is a large concern for 
the military and the readiness posture.
    But I think more immediate, we do have a real hard deadline 
on the Army pay accounts and we will run out of funds in June.
    Some of the operations funds we need are going to be out 
earlier in the summer, as well. I don't have a specific date on 
that. We are trying to work with our folks and understand what 
the requirements with the field are right now, but it should be 
about end of June or July that we would run out of operations 
funds.
    In March, more specifically, to the coalition efforts, we 
will be out of coalition support funds. So far, allies who have 
been helping us, we will be out there----
    Mr. Kline. In March.
    Ms. Jonas. In March. And then, again, as we had an earlier 
conversation about enhancing the ground forces, those funds 
that would reduce stress on the force are also in there.
    I would mention one last thing. We had a little 
conversation on--had some conversation on BRAC and wounded 
warrior and we did include in that--request funds for Bethesda 
and for Walter Reed. So that would be important to us, as well, 
sir.
    Mr. Kline. All right. Thank you very much.
    Mr. Chairman, I yield back.
    The Chairman. Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    Mr. Secretary, we remain thankful that you have taken 
Secretary Rumsfeld's place. It is a very distinguished group we 
have in front of us, and I would like to ask a couple of roles 
and missions questions.
    As you all are aware, Chairman Skelton put in the Defense 
Authorization Act of 2008 a specific requirement that the 
Pentagon start addressing some of these questions.
    Can you give us a general idea of how the Pentagon is 
planning on mobilizing for this review?
    Admiral Mullen. Yes, sir. Actually, the chairman and I have 
talked about that legislation and certainly we have every 
intent of fully complying with it.
    My background on this comes from the last time this was 
done, at in my experience, was in the mid 1990's. And it was a 
huge challenge for all of us. I am aware, I think I am aware of 
the genesis of it this time and getting our roles and missions 
correct for the future, we are very committed to that.
    What I worry about in this, and I have shared this with the 
chairman, is that not done well, it has a tendency to turn 
services against each other. We have come a long way in the 
joint world.
    It was thus in the mid 1990's when we did this. And so one 
of my charges to myself, from a leadership perspective, is to 
make sure that doesn't happen.
    And so we are on the way right now, standing up the working 
groups that would get at this from each of the services, and 
the service chiefs and I and the vice chairman have committed 
to making these decisions ourselves, whatever they might be, so 
that we can get it right for what we believe it should be for 
each of the services.
    So we are very committed to the process and it will pick up 
from the last Quadrennial Defense Review (QDR) come now and 
then we will do a QDR in two years and two years after that we 
will do another roles and missions.
    Mr. Cooper. Thank you, Admiral. You may know that Chairman 
Skelton has also appointed a seven-member panel of this 
committee, on a bipartisan basis, and our report will be coming 
out next week. So we would hope that your group could take into 
account some of the information that we will be making public 
at that time.
    Admiral Mullen. We will certainly do that, yes, sir.
    Mr. Cooper. Again, on roles and missions, we do want to 
guard against excessive intra-service rivalry, but anyone who 
has looked at defense budgets over the years cannot help but 
note, whether Cold War, Hot War or no war, the Army, Navy or 
Air Force share of the defense budget has remained virtually 
static for 40 or 50 years.
    Is this a result of some sort of secret gentlemen's 
agreement? What is going on here? Because I know this year that 
the Army is surging in its funding and it is going up by one-
half of one percent.
    So while, as the secretary noted, overall defense spending 
has gone up and down like an EKG, each service's share of 
defense spending has remained unbelievably static, some might 
say frozen, for decades, regardless of our security 
environment.
    What is going on here?
    Admiral Mullen. Well, for the 12 years I have been in and 
out of the budget world, I don't think it is part of a sinister 
plot, but it is very hard to move money from one service to 
another. I think you know that.
    One of the challenges, at least, at this part of this is 
keeping the right balance, and it goes--and this goes back for 
40, 50, 60 years, where we have had a pretty good defense 
capability.
    I mean, we can argue about it on the margins at certain 
times, but by and large, it has been extraordinary national 
security capability for those same decades.
    So I would not be inclined to just throw it out and re-
divide the money. I think it has morphed to some degree over 
time. In fact, the Army's share in the last two or three years 
has really increased, because we have grown the force 
dramatically, as has the Marine Corps, and the Navy and Air 
Force's has stayed fairly constant, if not gone down, depending 
on what you are talking about.
    To me, that is more indicative of how it should happen 
rather than do something radical, and this goes back to 
unpredictability, very dangerous world, and I think moving 
rapidly in something like this could put us in a situation in 
the future that we wouldn't want to be in and hadn't 
anticipated.
    Mr. Cooper. So you would continue to advocate very slow 
change in service shares of the defense budget, if we see any 
change at all.
    Admiral Mullen. I am actually an advocate for rapid change 
in lots of areas and lots of capabilities and that actually--
there has been great change in each of the services, 
particularly in the last four, five, six years.
    I wouldn't use it just from the budget perspective and say 
let us just move this much money and see what happens. And I 
think that roles and missions has some potential for certainly 
getting at this, but it is a tough one.
    Mr. Cooper. I see that my time has expired. Thank you, Mr. 
Chairman.
    The Chairman. Thank the gentleman.
    The gentleman from Arizona, Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Mr. Chairman, Ronald Reagan said a long time ago that ``Of 
the four wars in my lifetime, none have come about because the 
U.S. was too strong.''
    And it occurs to me that the best way to propagate peace is 
through a coherent and principled foreign policy and a strong 
and robust military capability. And you folks here today 
represent the leadership of that capability and there is no way 
in the world to explain to you how much those of us on this 
side of the podium appreciate what you do.
    It never can be said too often or in too strong of terms. 
You are the guardians of human freedom, and I don't know that 
there is any more noble thing that can be said of someone.
    With that said, Secretary Gates, the budget that you are 
here to kind of explain to us today is more than it was last 
year, but it is still--the baseline budget part of it is still 
3.4 percent of the GDP of this country.
    And, you know, a lot of us understand, as well as you do, 
not as well as you do, but certainly very well, that we face a 
long war with those who use terrorism as a tactic.
    Admiral Mullen, you have made it clear, and I agree, that 
we have also got to keep in mind that there are a lot more 
threats to loom that extend beyond the Middle East.
    And, Secretary Gates, you said in your 2007 annual report 
that Beijing continues its rapid rate of military modernization 
and anti-access strategies, not only in land, air and sea, but 
also in space and cyberspace, as well.
    Those are a lot of priorities to keep track of. And, 
Admiral Mullen, you have spoken openly about the need for at 
least a floor of a four percent GDP spending for the baseline 
defense of this country, and that is certainly--I understand 
that perspective.
    I guess given some of the national dialogue that some 
people are putting a number, and it needed to be a much higher 
one, can I ask you, do you honestly believe that four percent 
GDP as a floor for defense spending in this country is enough?
    Admiral Mullen. I am comfortable that, as a floor, it ought 
to be the minimum, based on--and I appreciate the earlier 
discussion about what four percent means and what the metrics 
are.
    I honestly believe that we have to have--that we need to 
have a debate and a discussion in the country that really gets 
to, well, what are we going to spend on defense in this time. 
And I worry a lot about the cyclical aspect of the budget over 
time and I worry about it getting caught up in programs, 7 or 
10 programs that are overrun or the overall size of it, and it 
is a huge amount of money. I do understand that.
    My own experience in recent years is I have seen the costs 
for our people go up dramatically, rightfully so. You have been 
incredibly supportive of getting the compensation package right 
across the board, and we need to do that, because they are the 
best people I have ever seen in the some 40 years that I have 
been on active--almost 40 years that I have been on active 
duty.
    We are buying technically challenging, leading-edge 
systems, which we need to, and I worry about the technical gap 
closing or being closed on us. That is not an inexpensive 
investment either, and our operations continue apace.
    So I think that builds, in my calculus of going through 
that, that builds to a floor, at least a floor, in the world 
that we are living in, of four percent. And I am not sure that 
is right and if GDP goes up and down, I mean, the economy goes 
up and down, I understand the imprecision that is there.
    But it is a metric that at least I would hope would 
engender a thorough, comprehensive debate about what we need, 
particularly as the Department is one of the very few agencies 
with any discretionary spending, with all the other challenges 
that I know we have as a country.
    Mr. Franks. Well, Admiral, I guess--I think part of the 
reason those of us here in this body are supposed to understand 
that defending the citizens and their constitutional rights is 
our number one priority.
    Unfortunately, I don't think the public understands how far 
defense has fallen as a percentage of GDP.
    How can we, as Members of Congress, help facilitate that 
national dialogue and help people understand what we are really 
facing historically and where we have come from?
    And I might pose that question to both of you, because my 
time will be gone here when I finish. But thank you all again 
for what you do, and I will let you answer the question.
    Secretary Gates. I think we don't have much of a public 
dialogue on these issues in this country and to the extent 
there is a dialogue, it is because--with people advocating 
rather than having a dialogue. And my view is that, clearly, 
the Congress plays a role.
    Part of the problem with being around a long time is that I 
remember the draconian budget cuts after the Vietnam War and 
was there for the beginning of the decline of the defense 
budget and intelligence budget in the early 1990's.
    So I have to tell you, as somebody who has been out of 
government for 15 years, spending on defense and intelligence 
these days looks very robust to me. I think the need is there 
and it is required, but for all--one of the messages that could 
go out of this place, frankly, is--and that I try to convey 
when I talk to military audiences all over the world--is leave 
aside the debate about Iraq.
    There is very broad bipartisan support in the Congress for 
a strong military and to take care of our men and women in 
uniform, and I think there would be some value in getting that 
message to the rest of the country, despite the debate on Iraq.
    Mr. Franks. Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    We are going to turn to worms here pretty soon and we have 
a total of three Republicans that have not asked questions and 
seven on the Democratic side who have not asked questions.
    We will go as fast as we can, ladies and gentlemen.
    Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    I appreciate all of you being here, and I appreciate very 
much for your service.
    Mr. Secretary, picking up on what you have just said and 
something that Admiral Mullen mentioned in his testimony, 
building partner capacity winds up being a critically important 
ingredient to future success where defense is concerned for the 
United States.
    We just can't do this alone. We can't do it effectively. 
With the growing lethality of hatred and the kinds of threats 
that are developing worldwide, global pandemics, terrorist 
organizations, climate change, simply disparities where 
economies are concerned, those things call for global 
partnerships and building partner capacity.
    And I have been one that has regularly said, when asked to 
support closing the School of the Americas, now the School of 
the Western Hemisphere, ``No, I think you are stuck in the 
1960's. We need a School of the World.''
    So this is music to my ears.
    The reference to the Building Global Partnership Act 
specifically--that Admiral Mullen referenced--specifically 
mentions this was brokered between the two secretaries.
    My question, Mr. Secretary, would be what were--give me the 
top three things you did not get. I, frankly, think most of 
this stuff needs to be maintained in Defense, because we will 
cut the budgets of the State Department, USAID, et cetera. We 
do that historically. We will do it in the future.
    What are the three things you didn't get in the dickering 
with the Secretary of State that you would have liked to have 
seen in Defense, but went to State?
    Secretary Gates. I think with respect to both Section 1206 
and 1207, based on everything I hear, we are very comfortable 
with where we are and the division of labor particularly in 
1207.
    I don't recall, in the year I have been in the job, a 
single debate being brought to me where we just couldn't agree 
on a 1207 commitment overseas.
    Now, that money is in our budget. We have $200 million in 
the 2009 budget for it. We had $100 million last year. And it 
pays for things like ordnance disposal, police training in 
Lebanon. It pays for community policing in Haiti.
    And I just am not aware of any differences in terms of 
priorities or projects between ourselves and State.
    Mr. Marshall. Has my time expired?
    The Chairman. I think the clock was in error, so please 
proceed.
    Mr. Marshall. So there wasn't anything in addition to what 
was agreed upon between you and the Secretary of State that you 
would have liked to have gotten on the Defense side.
    Secretary Gates. I am not aware of any. I can certainly 
ask.
    Mr. Marshall. Well, if this brokered between the two of you 
specifically, I thought perhaps you would have something in 
mind.
    You mentioned in your testimony that you are worried--well, 
you do not see how a partnership where one of the partners 
fights, the other partner or some of the other partners provide 
Social Security work, that sort of thing, will work and I would 
like you to elaborate a little bit on that.
    When we organize teams, not everybody is a center, not 
everybody is a guard, et cetera. We pay attention to what our 
capabilities are.
    The United States has conventional military capabilities in 
spades. It doesn't seem sensible for a whole of people to try 
and duplicate the force that is already in existence that can 
take care of any conventional problem.
    Where we really lack strength is in building partner--well, 
building the capacity in Afghanistan and Iraq politically, 
economically, that sort of thing.
    Why shouldn't our partners provide that capacity which we 
don't seem to be able to provide?
    Secretary Gates. They are providing some of that capacity, 
but for the most part, they do it in a European Union (EU) hat. 
The EU has a lot of projects in Afghanistan, a lot of civic 
action kinds of things.
    But what I remind the allies of is NATO is a military 
alliance. It was created to defend all of the allies against 
threats from one another or an external threat.
    It is not a mini United Nations (U.N.). It is not an EU. 
And where--the speech I am going to give in Munich this 
weekend, to a certain extent, gets to your point, because it is 
going to say NATO cannot be purely military. It also has to 
have some civic action kind, civilian reconstruction and 
economic capability, as well, and the EU cannot be strictly 
civilian. EU probably has to have some military capacity, as 
well, as the French have been trying to get EU members to join 
them in Chad.
    But my view is that you can't have some allies whose sons 
and daughters die in combat and other allies who are shielded 
from that kind of a sacrifice.
    I think, just realistically speaking, as we heard from the 
Canadian government just in the last couple of weeks, the 
allies--the willingness of those who have engaged in combat to 
continue to do so will disappear.
    Mr. Marshall. Mr. Secretary, if it is very important that 
we build political and economic capacity in Afghanistan and 
Iraq and if we can't do that, would you encourage NATO, our 
NATO allies to put more of their resources toward that and 
maybe less toward the military end of it, since we can do the 
military end?
    Secretary Gates. Well, again, I think the Europeans have a 
fairly significant civilian component. My worry is that the 
leaders of NATO committed in the past that each country would 
spend at least two percent of GDP on defense.
    There are only 6 allies out of 26 that spend 2 percent or 
more on defense. So they are not even at the minimal level of 
spending on military capabilities, and that is my concern.
    Mr. Marshall. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    The Chairman. Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman. And I can't express 
my gratitude enough to you, sitting here on the bottom row, of 
enforcing the five-minute rule. So thank you very much. I get 
to ask a question today.
    Thank you, Admiral and Mr. Secretary, for being here.
    As I looked at this budget, and I support the increase, but 
one thing that jumped out at me was that there looks to be an 
actual decrease in funding for our special operations forces, 
where, since 9/11, I think our policy and our goal has been to 
increase the special forces community.
    So can you walk me through the rationale on why we are 
seeing--I believe I am seeing--is a decrease in special forces 
funding?
    Admiral Mullen. I am a little surprised, and I would have 
to go back and look at the budget documents to see if the 
decrease--I know it calls for an increase of 1,000 in the 
special forces and we have been building special forces, and a 
lot of our focus, and rightfully so, is on the growth in the 
Army and the Marine Corps.
    But they are an incredibly important part of not just what 
we are doing now, but also to the future. So from that 
perspective, I know it calls for that increase. I would have 
to----
    Mr. Shuster. Manpower.
    Admiral Mullen. In manpower.
    Mr. Shuster. Can you take a look at that and maybe get back 
to me?
    Admiral Mullen. Sure, be glad to look.
    Mr. Shuster. It is my understanding that it looked like it 
was going to be a decrease.
    Admiral Mullen. It is. At least my understanding is there 
is a growth of 1,000 and some in the budget this year, that 
resources would be going in the other direction.
    I would have to check and see.
    Mr. Shuster. And my understanding of--the second question 
on irregular warfare--that the capabilities are well developed 
in the special forces community.
    Has there been any consideration or is there any benefit to 
putting the Special Operations Command (SOCOM) commander as an 
adviser to the joint staff when you are looking at----
    Admiral Mullen. Well, he is----
    Mr. Shuster. How the function is structured, I guess, is 
really want I want to--a more structured role.
    Admiral Mullen. He is actually, just because of--he has 
both Title 10 responsibilities, as well as being a combatant 
commander. If I were he, I can't think that he might want to 
come to Washington and work.
    And he does--I spend a lot of time, as our staffs do right 
now--he is very--this is Admiral Olsen--he is very well engaged 
and is very well represented.
    So I am comfortable with the relationship that we have 
right now.
    Mr. Shuster. And one final comment, question, back to what 
I think a couple of people have talked about, the Joint Strike 
Fighter, and I think my colleague from Hawaii talked about the 
second engine.
    Not only--and I understand there was a failure and I don't 
know if it was the F-22 or the F-18 in the past that we went 
with one engine. I could be wrong on what plane it was. But we 
had some serious problems because we had one engine.
    There is that and then, also, I understand that with one 
engine, you don't have the competitive forces keeping the 
quality up and the price down, because it is my understanding 
that, looking back years, that the price of that engine on 
whichever fighter it was started to really get up there.
    So I would encourage you to look at that and have that 
second engine not only from a standpoint of having it there to 
use, but also to keep the quality and the cost----
    Admiral Mullen. And I recognize, certainly, the challenge 
of the test failure, although that is certainly not unusual for 
new developing programs.
    We looked at the business case on this over several years 
and the investment in the second engine was upwards of $2 
billion, and we couldn't get it to pay off, basically.
    I recognize the competition fees, but even in that, we 
couldn't. And then, third, we have built plenty of airplanes 
historically that just had one engine and there also had been 
problems.
    So we felt that for risk in the program, basically, that 
this was the right step to take, and, obviously, with the 
budget submission, we restated that.
    Mr. Shuster. Well, thank you.
    And, Mr. Chairman, I see my time has not expired, but I 
will yield it back to you. Thank you.
    The Chairman. Thank you very much.
    Mr. Sestak.
    Mr. Sestak. Thanks, Mr. Chairman.
    My concern, Mr. Chairman, Secretary, with the four percent 
is it seems to me, to some degree, that is kind of looking at 
our wake. If you take that four percent and look forward and 
not in just what Social Security is doing at one percent and 
what Medicare and Medicaid is doing at, the actuarials say, the 
one percent, by 2030, the federal debt held by the public will 
be equal to the GDP.
    In short, the mortgage for America is larger than its 
income. But, yet, if you do want to look at the wake, if you 
look at how much we are spending today--excuse me--last year's 
budget, we actually are spending more in real terms without the 
supplemental that we did in the Vietnam War or the Korea War.
    And if you add in the supplemental, the Army actually now 
procures more in its procurement account in the supplemental 
than it does in its actual budget.
    What has happened, it seems to me, when you talk about FCS, 
is we have gone from 31 heavy brigades to be manned in FCS now 
down to 15.
    Admiral, when you had the Navy in OP-03 or whatever they 
call it, you were going to procure 36 or so or 32 DDGs. Now 
your budget is going to buy us seven. That means two out of 
those $3.5 billion platforms each will be forward ready to 
fight.
    When you look at the Air Force, they are going from 3,000 
down to 2,200 aircraft.
    Admiral, you said, in Afghanistan, the hard thing is 
military leaders make decisions. And so on economy of force, we 
do what we can.
    Mr. Secretary, have we really looked forward and said maybe 
it isn't just the four percent? Over the last six years, we 
have tried to look at a capability-based military.
    With the reality that you are just kind of chopping off, 
like FCS, DDGs, have you really looked at how you are hedging 
your bets and the threats in the future? And so we are just not 
cutting like this, because we are soon going to have a mortgage 
larger than our income.
    Are we really looking at if there is a different way to do 
this?
    Secretary Gates. Well, I have to be candid and say that 
this has not--in the clearly relatively brief time that I am 
going to be in this position, this not something that I 
personally have done.
    My focus has been elsewhere, as you can expect. But I do 
believe, based on what I have seen, that others have done this 
and that there has been a thoughtful process that has led to 
these decisions.
    It is a little bit like the equipment of the National 
Guard. The National Guard may not have every single piece of 
equipment that they--in the numbers that they had before, but 
the quality and the capability is going to be significantly 
greater with what they do have.
    But in terms of what kind of studies have gone into the 
decisions that I inherited on this major programs, let me ask 
Admiral Mullen.
    Admiral Mullen. I think--and, Mr. Sestak, I know that with 
your background, you know where an awful lot of it started 
specifically with the Navy, as we were challenged, quite 
frankly, because of the growth of the cost of platforms, the 
retirement of other platforms, and we took on very strongly a 
way to look at it differently.
    In the end, for the Navy, we have got to have ships. You 
can't be much of one without them. And, in fact, I see the Army 
transforming. What is interesting to me about the Army is they 
are not just fighting two wars, not just on these long 
deployments, not just trying to reset the stuff that they are 
working, I mean, the stuff that is being worn out, but they are 
also transforming.
    They are modularizing as we go and it is, I think, both a 
sense of urgency and the pace of change which has helped 
greatly there.
    I think it is a legitimate question on FCS.
    Mr. Sestak. Sir, if I could. I bring this up because it is 
very obvious that this is going to have to be different if you 
really believe what is going to happen in 2030.
    So let me just switch to another one. If I could, Mr. 
Secretary, when you are out there at NATO, I have always been 
struck by how everyone wants to blame NATO.
    May I just finish?
    The Chairman. Finish your question.
    Mr. Sestak. And, yet, when I looked at your combined 
security transition command and the international security 
assistance force reports, the United States' contribution for 
embedded trainers and mentors in the army and the police of 
Afghanistan is 67 percent below what our own requirement is.
    If this is really where it began, that is absolute, the 
3,000 troops you are placing there temporarily, why haven't we 
met our requirement before we point at NATO?
    Secretary Gates. Well, we have been very honest with NATO 
about the limitations on ourselves and, frankly, the only thing 
we are trying to do is to point out to some of our allies who 
have made commitments and have imposed caveats, that they are a 
long way from fulfilling their commitment.
    The reality is that the United States, now, with the 
addition of the Marines, will have more troops in Afghanistan 
than every other country combined and we will have about half 
of the International Security Assistance Force (ISAF) mission.
    We certainly are looking at ways to increase the number of 
embedded trainers with both the police and the army, but I 
would tell you that a big part of the police training 
commitment is one that the EU took on and, frankly, have fallen 
way short.
    The Chairman. Thank the gentleman.
    The gentleman from Pennsylvania might be interested in 
knowing that the secretary recently addressed this issue and a 
related issue regarding NATO that is prominent in the news.
    Am I correct, Mr. Secretary?
    Secretary Gates. [OFF MIKE]
    The Chairman. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you.
    And, Mr. Secretary, I want to thank you for being the 
leader that you have been. After the previous Secretary of 
Defense, you have been a welcome, welcome man of integrity and 
honest, and I just want to say thank you for the transparency 
that you mentioned yourself and you have done exactly what you 
said the first day that you came before this committee.
    Mr. Secretary, I want to start--it is going to be a brief 
answer for you, I am sure, because there is no real answer to 
this.
    This past weekend, in USA Today, ``Allies fell short on 
Iraq aid pledges.'' I will read just three or four points and 
then I have one question.
    ``Nearly 5 years after the United States-led invasion of 
Iraq, allied countries have paid 16 percent of what they 
pledged to help rebuild the war torn country, according to a 
report scheduled for release today. Foreign countries have 
spent about $2.5 billion of the more than $15.8 billion they 
pledged.
    ``The United States so far has spent $29 billion to help 
rebuild Iraq. The inspector general's report says that Congress 
has approved an additional $16 billion.''
    So that, in itself, is $40-some billion that we are 
spending. From 2000 to 2006, Saudi Arabia exported about $95 
billion in crude oil to the United States, as its average price 
more than doubled from $25 to $56 a barrel, and we know today 
it is $100 a barrel or right at $100.
    I understood what you said of trying to get our friends in 
NATO, if I can say it that way, to understand their 
responsibility of helping this country as we fight terrorism in 
Afghanistan.
    But where are we in trying to make the Saudis understand 
that it is our kids who are dying and being wounded and they 
won't even pay their bill? We are not asking them to send 
troops. We are asking them--they are getting fat and sassy off 
the American taxpayer.
    And I am not being critical of anyone. I am just asking 
you, as the professional that you are, if you were sitting here 
as an American ex-secretary of defense, why don't these 
countries understand?
    I looked at ``60 Minutes'' the other night. I see this 
high-rises in Dubai, I think it was, billions of dollars, and I 
just do--the taxpayer is worn out. And this has nothing to do 
with your budget, sir, I promise you.
    This is a frustration question on behalf of the people of 
the third district of North Carolina.
    Secretary Gates. Sir, I think that the--a couple of things. 
First, there is certainly a political element and most of the 
governments, most of the Sunni Arab governments in the Middle 
East are skeptical of the Iraqi government and worried about 
its future direction in terms of its relationship with Iran and 
vis-a-vis the rest of the Middle East.
    So I think part of the slow delivery of the aid money has 
been politically motivated.
    Part of it is the difficulty of providing security for some 
of these construction projects and some of these endeavors that 
they have agreed to undertake and I am sure that there are 
other factors, as well. I didn't want to--I put the political 
one up front, because I didn't want to seem naive.
    The other side of this, though, is that they have provided, 
including Saudi Arabia, significant debt relief to Iraq. And so 
Iraq's foreign debt has been dramatically reduced as other 
countries, including some of the wealthy oil countries, have 
forgiven a great deal of Iraq's debt.
    So in purely financial terms, they have been very helpful 
to the Iraqi government. These projects, as you have just 
suggested, have gone a lot slower.
    Mr. Jones. Mr. Secretary, I am going to--just one 
statement, Mr. Chairman.
    The sad thing for the American people is we are going to 
forgive the debt of the Iraqi government, and, yet, our debt is 
climbing at $1.6 billion a day. And I will remember to the day 
I die that Congressman Gene Taylor and I went to Walter Reed 
Hospital six, seven months ago, and we met a soldier who was 
paralyzed, sitting in a wheelchair, shot in the neck by a 
sniper.
    As we were getting ready to leave, his mom came in and she 
asked Congressman Taylor and myself one question. ``My son is 
21 years of age. Will this government take care of my son 30 
years from now?''
    And he and I gave the best answer we could give--``This 
government should take care of your son.'' But if we don't wise 
up and understand that it is time for people to pay for our men 
and women dying.
    And, sir, you have done a great job and this is no 
criticism at all, but I hope the next Administration will make 
it clear that we do not bleed for other countries.
    And I yield back the balance of my time.
    The Chairman. Thank the gentleman.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And, Secretary Gates, I don't know if you are aware of it 
or not, but Chairman Skelton actually circulated your 
commencement address at Annapolis to all the members of the 
Armed Services Committee. And I just want to say, as somebody 
who read that, it was one of the healthiest statements about 
the role of a military in a constitutional democracy, and I 
think it should be required reading not just for people in 
academies, but, frankly, high school students. It was terrific.
    In the spirit of that, I just want to follow up on the last 
colloquy with the chairman on this issue of us, Congress, and 
this effort to negotiate with the Iraqi government.
    When President Bush signed his statement back in November 
with President Maliki, I mean, it stated that ``the U.S. would 
provide security assurances and commitments to the Republic of 
Iraq and support Iraq in defending its internal and external 
threats.''
    Now, that is more than a status of forces agreement, which, 
obviously, covers the legal status of our troops there. I mean, 
that is actually a security agreement.
    I just want to be clear, in my own mind, what you are 
telling us as to the Administration's intent. I mean, is it 
your intent to enter into a security arrangement with the 
government of Iraq?
    Secretary Gates. No. The status of forces agreement will 
not have a security component to it. It will not be a security 
agreement with the Iraqis.
    It will be like virtually all--well, like most status of 
forces agreements, basically, the rules of the road and an 
agreement on how we are able to operate in Iraq once the U.N. 
Security Council resolution authorizing that activity is 
concluded or runs out.
    So it is about what kind of--well, a question would be will 
we still have the authority to detain people. Another one would 
be what is going to be the role of--what kind of immunities do 
contractors have? So those are the kinds of issues that are 
going to be addressed in this status of forces agreement.
    And as I have said earlier, because of the special nature 
of this agreement, only because of the sensitivity of the issue 
here in Washington or in the country, I believe that the 
government's approach to negotiating with the Iraqis should be 
a very open one with the Congress in terms of what is in the 
agreement, what we are asking for and so on.
    Mr. Courtney. That is certainly consistent with the Gates 
principles of your address and I--but it also sounds different, 
what you just said, in terms of today's statement versus what 
was signed back in November.
    Secretary Gates. And I am told that the declaration of 
principles that was signed in November was not considered by 
our government to be a security commitment.
    Mr. Courtney. And that will be reassuring, I think, to many 
people who are worried about tying the hands of a future 
Administration.
    Secretary Gates. I will tell you, and, you know, we--I 
would continue to say we do not seek and do not want bases, 
permanent bases in Iraq, and I think that nothing that I have 
seen in sort of the broad outlines of what we are trying to 
work out with the Iraqis would commit a next Administration.
    Mr. Courtney. Thank you. I probably don't have much time, 
Admiral Mullen, but since people in my district follow the 
shipbuilding budget like a box score back home, there is 
certainly already questions being raised about the figures that 
are in the budget and the purported maritime strategy of this 
country to get to a 313-ship fleet, because it just--the 
arithmetic of the math of an 8-ship request, with a 313-ship 
goal, I mean, it just does not add up in terms of getting to 
that number.
    And we have heard a lot of talk here today about the fact 
that a lot of these issues are being pushed off into the 
future. Is that what is happening here?
    Admiral Mullen. I don't think, in the case of the 
shipbuilding budget this year, that was the case. The numbers 
were projected to be, I think, an additional four ships that 
were tied to the Littoral Combat Ship (LCS) program, and that 
program has been adjusted because of the challenges that we 
had.
    I really think that the Navy has a good handle on that and 
that the commitment is very much still there to get to 313 and 
the capabilities that represent that, and LCS is a really vital 
part of that.
    So it is more reflective of that than being able to, with 
LCS not being able to be as robust as we want it, let us take 
that and put that somewhere else. I know you know, in terms of 
being able to build up from a base of one, one a year in the 
submarine world, that is a huge challenge and it is just not 
something we can do inside 12 months.
    So the Department and the Navy are still very committed to 
this 313 and to the investment. And I know the new Chief of 
Naval Operations (CNO) has been very public about his 
commitment, as well.
    The Chairman. Thank you.
    Along that line, I know there have arisen, at least on one 
occasion, the rate and the type of ships that are being 
retired. That adds to or subtracts from the goal that I know 
that you set back when you were CNO.
    Mr. Loebsack, the gentleman from Iowa, please.
    Mr. Loebsack. Thank you, Mr. Chair. And I, too, want to 
thank all of you that are at the table for your service and 
especially Secretary Gates.
    I wasn't here with the previous Secretary of Defense, but I 
did follow closely his relationship with Congress and I 
appreciate your service and your relationship with this 
Congress. So thank you.
    In Iowa, we don't have a submarine base, we don't have an 
air base, we don't have any bases, for that matter, but we do 
have a lot of National Guard units.
    I guess I just want to state, at the outset, the concern 
that I continue to have about dwell time, about the equipment 
concerns you mentioned, that National Guard units may not have 
as much equipment in the future, but it will be better 
equipment, it will be more efficient.
    But we have had a lot of difficulties in Iowa when we have 
had National Guard units deploy overseas and have to leave 
their equipment behind and then come back and not have 
sufficient equipment in case of natural disasters or whatever 
the case may be, and we have had a number of them in the short 
time I have been in Congress.
    But the dwell time issue is a big concern. The 833rd 
Engineering Unit of our Ottumwa, they had a dwell time of 14 
months before they were redeployed, and I was fortunate enough 
to visit them in Balad in October, the second congressional 
delegation (CODEL) that I was able to take to Iraq.
    And I heard from them their concerns that they have and, 
obviously, their families have a tremendous concern, too.
    And related to that, I am not going to ask a question about 
this, but I do continue to wonder about statements that I have 
heard from folks in DOD about the future of the National Guard 
and the Reserves and the extent to which they might engage in 
hostilities around the world, the transformative nature, I 
guess, that people have in mind as far as what the Guard is 
going to be and what they are going to do, and the Reserves, as 
well.
    But I want to leave that at that for the moment, although 
feel free to respond.
    I want to go back, if I could, to the question of four 
percent of GDP. There is a part of me that is thoroughly 
confused as to why that number is ever brought up and the 
testimony that I have seen, in the short time that I have been 
in Congress, I think every single time that there is testimony 
about budgets, that may very well be the first thing that is 
brought up, the percent of GDP that is being devoted to our 
military, and relative to what it was during the Korean War, 
during the Vietnam War, whatever the case may be.
    I have to say that I find absolutely no logic whatsoever in 
using that number as a starting point. Maybe it is not a 
starting point in your deliberations. I don't think it makes 
any difference what percent of our GDP was used for the 
military, was devoted to the military in 1953.
    It is 2008 and we are looking forward. I understand some 
people might use that as a political argument, because we are 
at such a low level now compared to the past. But I just want 
to ask kind of a general global question.
    That is, when you start the process of determining how we 
are going to get to the $515.4 billion, where do you begin? You 
talked about the threats at the outset, failed states, all 
these other things.
    How do you get to that $515.4 billion? What is the template 
that you use? Because in the past, George Kennan, and I have 
mentioned this before in previous hearings, George Kennan, 
after World War II, had, I thought, kind of a logical approach 
to these things.
    He said we have threats out there in the world and not all 
the threats are the same. Some are imminent, some are not. Some 
are--excuse me--serve with interest. Some are vital, some are 
peripheral. We have interests out there in the world and we 
have threats to those interests.
    Then we have capabilities, because we do have Medicare and 
we have Medicaid and we have entitlement programs. And then we 
decide how much we are going to devote to the military based on 
sort of that analysis.
    What you folks do, does it anywhere approximate that 
approach or is it something completely different?
    Secretary Gates. Let me begin and then ask the admiral to 
chime in.
    It seems to me that, first of all, the defense budget, in 
many ways, has become a little bit more like the overall 
Federal Government in the sense that the fixed costs compared 
to discretionary spending have risen dramatically.
    I talked about the health care, $46 billion this year. The 
needs of the National Guard and what we need to invest in the 
National Guard, pay and other benefits. These are the things 
that begin, it seems to me, to build the things, the bills you 
have to pay, and then you look at the long-term programs, such 
as the procurement programs of ships and so on.
    But I think one of the benefits, if you will, of the kinds 
of the Quadrennial Defense Review and these kinds of things 
really do, I think, step back and look at the world freshly and 
try and say how do we--how has the world changed and how should 
we, in the years to come, adjust the direction of the defense 
budget.
    And I was struck when I read the Quadrennial Defense 
Review, getting ready for confirmation, about how much had 
changed since I left the government in 1993. I think that you 
have to be gone from this place for a while to see that change 
actually does take place and over some period of time, dramatic 
change.
    The whole character of the Army has changed in 15 years. So 
it seems to me that there is that kind of a process and it 
starts with the major studies, the national military strategy 
and the Quadrennial Defense Review.
    I don't know, Admiral, if you want to----
    Admiral Mullen. It is not unlike, sir, what you described, 
to look at the threats, to look at the capabilities and to try 
to move in that direction with where we should go.
    Mr. Loebsack. But that has nothing to do with percent of 
GDP in the end, right?
    Admiral Mullen. It doesn't, except it arrives at a percent.
    Mr. Loebsack. Right, exactly.
    Admiral Mullen. But this one seems to be pretty consistent.
    Mr. Loebsack. Right, okay. Thank you. Thanks very much. 
Thank you, Chair.
    The Chairman. Thank the gentleman.
    Ms. Tsongas.
    It looks, Mr. Secretary and Admiral, we may make it under 
the wire with everyone having the opportunity to ask questions. 
Please bear with us. We are going to make it.
    Ms. Tsongas.
    Ms. Tsongas. And I will try to be brief.
    I would like to thank you, Mr. Secretary and Mr. Chairman. 
I am the newest Democratic Member of Congress and as I begun my 
service on the Armed Services Committee, I am quite struck by 
the awesome nature of our responsibility.
    And as our representative just talked about, we are a 
civilian legislature. We come to it with a very different set 
of experiences, and this is very much a part of that process of 
coming to an understanding about how best to protect our 
Nation.
    So I thank you very much for your commitment. It is an 
obligation, but also your commitment.
    My question is about the war in Iraq. It is nearly 
impossible, I think, Mr. Secretary, for us to maintain the 
number of troops in Iraq that we currently have and, at some 
point, these troops are going to come home.
    The U.S. taxpayer cannot continue to spend billions of 
dollars per week on operations in Iraq and it is clear it is an 
important discussion in this most important Presidential year.
    My question is, has the Department engaged in any planning 
to prepare for the redeployment of U.S. troops in Iraq?
    Secretary Gates. Yes, ma'am, we have. We have already 
planned for the return of the first 5 brigades of the 20 
brigade combat teams that have been deployed in Iraq.
    One of those brigades is already out and back home. Four 
more will follow before the end of--by the end of July. General 
Petraeus will bring his recommendations to the President in 
late February or in March, rather, in terms of the second half 
of the year and once the President has heard from him and the 
Central Command commander and the joint chiefs and from me and 
made his decisions about further drawdowns, if there are to be 
those, then the planning for the return of those brigades will 
proceed.
    So I think we do have a good plan.
    Ms. Tsongas. So you are saying that the planning is in 
place currently for those that were part of the surge and we 
plan to bring back.
    My question really more addresses the complete totality of 
it, as we look ahead to what might occur in November and 
putting in place a process for bringing our soldiers home, 
because it seems to me, at the very least, we owe them their 
safe redeployment, and the planning for that, I would guess, 
should take some time.
    Secretary Gates. Sure. We have been doing that and we have 
been talking a lot, planning in terms of what kind of equipment 
should be left, what should be brought home, what about the 
contractors and their equipment. Much of that equipment belongs 
to the government, how much of that do we want to bring back.
    We have been addressing all those issues.
    Ms. Tsongas. Thank you.
    The Chairman. I thank the gentlelady.
    The gentlelady from Guam, Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman, and thank 
you again for your visit to Guam.
    Secretary Gates and Admiral Mullen, Secretary Jonas, thank 
you for testifying before our committee today. And I want to 
get right to the point and that is to the military build-up on 
Guam.
    In 2005, the Deputy Secretary of Defense, Mr. England, 
signed a memorandum that established the joint Guam program 
office to coordinate all the planning associated with the Guam 
military build-up.
    The coming year is very important for the groundwork for 
planning. Just next month, we will be receiving a draft of the 
Guam master plan and, in a year or so, the draft environmental 
impact statement is scheduled for completion.
    I have repeatedly stated in this committee and elsewhere 
that we must get the planning right and it has to incorporate 
the concerns and the needs of the citizens of Guam.
    So to that extent, I have called for a memorandum of 
understanding to be drafted between the appropriate federal 
departments and the counterpart agencies in the government of 
Guam, since there undoubtedly will be changes in government 
leadership in the near future.
    Mr. Secretary, are you coordinating with Secretary 
Kempthorne at the Department of Interior to get the interagency 
group on insular areas to identify funding needs and program 
them into the budgets across all corresponding federal agencies 
and what level of discussions have you had with the secretariat 
level about coordinating activities? And do you envision more 
meetings to implement these coordinated activities?
    Mr. Secretary, it appears that there is some unwillingness 
from federal agencies to program for various aspects of the 
military build-up.
    Secretary Gates. Secretary Kempthorne caught me in the 
White House. He has just returned from Guam and he caught me in 
the White House two or three days ago, said that he needed to 
come talk to me about Guam, and that will be our first meeting 
on it and we will pursue it from there.
    Ms. Bordallo. Thank you. Thank you, Mr. Secretary.
    Also, I have one quick question. Initially, I am concerned 
at the funding levels for Andersen Air Force Base on Guam. I 
received a letter, and Chairman Skelton's office also received 
this letter, and I think Chairman Skelton and General Owens 
discussed this when the chairman was on Guam.
    This letter is from General Rice at Pacific Air Forces 
(PACAF), back in November, about projects that would support 
the planned Intelligence, Surveillance, and Reconnaissance 
(ISR) strike capability at Andersen.
    They identified nearly $700 million in construction needs 
that do not appear to be in the defense program. The fiscal 
year 2009 budget only contains $5.2 million for construction of 
a combat communications facility at Andersen.
    As the Marine relocation construction approaches in 2010, I 
am very concerned that these Air Force projects will not be 
able to be completed.
    So what is being done, Mr. Secretary, at the Department of 
Defense to address these concerns? Or maybe Secretary Jonas can 
answer that.
    Ms. Jonas. I am not familiar exactly with the issues of the 
Air Force, but I would be happy to get in touch with the vice 
chief and talk to him about the specific funding issues there.
    I would be happy to do that.
    Ms. Bordallo. Well, I can see why we are in trouble, Mr. 
Chairman, because neither of you are too much aware of this 
build-up and it is looming very quickly.
    Ms. Jonas. The Navy has, I believe, the project office for 
Guam. Do you want to--sorry about that, Admiral.
    Admiral Mullen. Look at me like I am in the Navy.
    Ma'am, you know that the program office has been set up and 
is direct report to Don Winter on this and he is really the 
executive agent for the Department of Defense.
    There has been a tremendous amount of focus on getting this 
right. I can't--I know that Andersen has--there have been 
challenges working through getting to the joint basing 
construct there, and I understand that that has now been 
decided and we are moving through that.
    I am not aware--I just don't have the detail on some of the 
specific projects. But I think to say that it is not a focus 
area and it is not an area that a lot of people are paying 
attention to doesn't reflect the leadership, particularly on 
the part of the Navy, and the individuals in the program office 
who are spending an awful lot of time on this.
    That we might have missed something to look at something 
like this, obviously, we can go back and look at that.
    Ms. Bordallo. Well, the entire project is to be concluded 
by 2014.
    Admiral Mullen. Right.
    Ms. Bordallo. And at the rate we are going, the funding is 
very, very important. Of course, Japan is funding $6 billion, 
but the additional money we need from our Federal Government is 
very important.
    So I just wanted to bring it to light and, certainly, I 
hope you will get together with some meetings on this.
    Thank you, Mr. Chairman.
    The Chairman. If the gentleman could answer that for the 
record, for all of our benefit, we would appreciate that.
    [The information referred to can be found in the Appendix 
beginning on page 105.]
    The Chairman. Mr. McIntyre, the gentleman from North 
Carolina.
    Mr. McIntyre. Thank you, Mr. Chairman. Thanks to both of 
you gentlemen for your continued commitment and service to our 
country.
    I would note, Mr. Secretary, you stated earlier about 
making sure that we, as Members of the legislative body, deal 
with our cohorts and colleagues and others who serve in 
parliamentary functions overseas and I know it was my privilege 
to travel with the chairman, as some of the other members of 
this committee did, to meet with parliamentarians in London 
last month for that very reason and met with their defense 
committee for the United Kingdom (U.K.) and talked about the 
importance of Afghanistan being understood in separate terms 
from what is occurring in Iraq and emphasizing that 
understanding to the people and our great allies in Great 
Britain, as well.
    So thank you for once again reminding that to us and it is 
something that we are serious about doing, as well.
    I wanted to ask you to follow up to a comment you made 
earlier about we do not want to have nor will we seek permanent 
bases in Iraq, is what I quoted you as saying, you and the 
chairman, when you all were testifying.
    Can you tell me what would be done in a situation like our 
air base in Balad, where we have invested significantly into 
that type of structure and what you would foresee happening 
given the fact that Congress has made it clear, plus the 
Administration understands, as well, that there would not be 
permanent bases in Iraq?
    Admiral Mullen. Again, the premise that there won't be is 
really important here. We have not worked out the kind of 
details of what would happen at Balad or al-Assad or some of 
the other air bases that we have, because we have invested in 
them significantly.
    My general expectation, at some point in time down the 
road, is those would be bases that clearly would be available 
to the Iraqis to do with what they wish, based on the 
capabilities that they would have over time. But we are a long 
way from any decisions with respect to that kind of--those 
kinds of decisions.
    Mr. McIntyre. Is your understanding that even if they were 
returned to the Iraqis, as you just said, to do with as they 
wish, that we would still have access if we needed those bases 
for other situations in that region of the world?
    Admiral Mullen. Certainly, that would be an issue of both 
concern and something we would talk with them about, but I am 
not aware that we have had those discussions.
    Mr. McIntyre. I wanted to also say thank you for your full 
funding of BRAC. I know, as you know, in my area of North 
Carolina, that Congressman Hayes and I share, as well as 
Congressman Etheridge, that BRAC is very important to the 
future of Fort Bragg, as well as in Congressman Jones' 
adjoining district, with Camp Lejeune, and we are seeing those 
differences already occur and are very pleased to see the 
emphasis on BRAC and would like to see that continue.
    I wanted to ask you one other thing.
    There are several articles that have appeared in the Army 
Times and some other military publications that the military 
advisory committee I work with back in southeastern North 
Carolina has brought to my attention and we have discussed 
recently.
    And that is that General Lloyd Austin, from Fort Bragg, 
who, as you know, is head of the United States Combined Joint 
Task Force in Afghanistan, as well as Army officials at Fort 
Benning, Georgia are seeking senior Army leadership approval 
with regard to a precision-guided mortar munition.
    There were 10 years of studies done, $100,000 put in 
development of this, and then nothing further occurred. Is it 
your understanding as to whether or not this is the type of 
precision-guided munition that the Army will need to be able 
to, as it says in the articles and statements they have made, 
be on target, portable and perfect for the infantry to use?
    Secretary Gates. Unless the chairman knows the answer to 
that question, we will have to take it for the record. I don't 
know the answer.
    Admiral Mullen. And nor do I, sir, at this point.
    Mr. McIntyre. All right. If you would and could get back to 
us within the next two weeks, that would be great.
    Thank you very much. Thank you, Mr. Chairman.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. Thank you.
    The gentlelady from Arizona, Ms. Giffords.
    Ms. Giffords. Thank you, Mr. Chairman. I appreciate the 
opportunity to see our secretary and, also, Admiral Mullen. 
Thank you so much for being here. I know that the day is long.
    A couple questions. The first I would like to lead with is 
about the acquisition process, military acquisition process, 
particularly as it relates to the United States Air Force.
    There is a growing concern here in Congress that the 
process is broken and I would like to specifically focus on the 
new combat search and rescue, the Combat Search and Rescue 
(CSAR) platform, that has not been able to get a new aircraft 
into production.
    This aircraft we know is important for a couple of reasons. 
First, it helps rescue civilian populations here, but also is 
able to go into theater and retrieve down pilots and also 
combat troops in harm's way.
    Throughout the bidding process, it looks like the contract 
award was protested, further delaying the procurement of this 
needed platform, and it still has yet today to have been 
successfully bid.
    So I would like to hear from both of you what we can do 
here in Congress to ensure that, yes, that legitimate protests 
are heard, but that the taxpayers are getting the most that we 
can for our dollars, and that the military procurement process 
is getting a better product in a quicker amount of time.
    Secretary Gates. Let me mention a couple of things and then 
ask Ms. Jonas to comment.
    One of the results of the consolidation of U.S. defense 
industries is that now each contract is almost a live-or-die 
contract for companies, for many of the companies, and we are 
encountering a situation now in which virtually every major 
contract is protested, which is clearly a delay in the process.
    So that is something that we have to work with and it is a 
result, as I say, of the consolidation of the industry.
    I would encourage you all to get the new Under Secretary of 
Defense for Acquisition, Technology and Logistics, John Young, 
to come up and talk to you about the reforms he is putting in 
place in the acquisition process to try and address some of the 
problems identified by the Congress and that we have identified 
and that the inspector general has identified, as well as just 
the delays and overruns in a number of our programs.
    I think he has put in a really good program that has real 
potential to reduce the problems that we have encountered, 
perhaps significantly. But maybe you could say a word about 
search and rescue.
    Ms. Jonas. We do have $320 million in the budget this year 
and $2.2 billion over the program life, but I would--just to 
echo what the secretary has said, I have had the opportunity to 
work with John for many years, and he is an incredibly 
disciplined and knowledgeable individual on acquisition issues 
and I think he takes a very disciplined approach to acquisition 
and I would second that. I think he could give you the 
specifics on that program.
    Ms. Giffords. Okay, thank you. I will follow up with the 
chairman.
    Admiral Mullen. Just three quick thoughts. One is good 
systems engineering, where is it going on, and it is an 
underpinning for success in development of these very, very 
complicated programs, particularly the high tech programs.
    Stability in requirements, and you can help there by making 
sure they don't change and we do have a habit of changing them, 
and I say the big ``we,'' lots of involved in that. We need 
pressure on that.
    And then stability in funding. Stability, it isn't the 
perfect answer, but clearly it offers opportunity or it offers 
the possibility that these programs can be brought under 
control.
    Ms. Giffords. Following, the next question. Over the past 
20 years, we have seen a significant decline in terms of the 
number of officers that are pursuing courses in graduate study.
    I believe during the 1980's, at any given time, there were 
about 7,000 officers pursuing advanced degrees, and now I 
believe the number is in the couple of hundreds.
    The concern we have is that if we are not able to build and 
maintain some valuable skills in terms of language proficiency, 
cultural awareness, we are going to lose the fight on 
international terrorism, because we are not going to adequately 
be able to get into the minds of the people that want to do us 
harm.
    Another concern I have is if there is a lack of 
opportunities for graduate study outside the military, we are 
additionally going to lose some of our top officers, and I 
believe this year, currently, graduating from--the graduates 
from West Point, we are keeping them for about, I want to say, 
five or six years. So we are losing about half of the class 
graduates at this point that are going on to other professions.
    I am concerned about this and I am just looking for some 
thoughts here of what we can do to encourage members and 
military officers to pursue a graduate education.
    Secretary Gates. Let me start and then have the admiral 
chime in.
    General Casey has put in a number of programs intended to 
provide additional incentives for particularly younger officers 
to remain in the service and one of the benefits that he has 
offered, one of the opportunities that he has offered is for a 
captain, for example, to be able to go essentially to any 
graduate school that he would like.
    In other words, it is not required that they be in a 
military program or in a military school. They can go to Texas 
A&M or wherever they wanted to go in order to get a graduate 
degree.
    And my understanding is that a number of the captains who 
have signed up for another stint have chosen this. Most of them 
choose the bonus. My guess is that is their spouse speaking, 
but they are also given choice of post as an incentive. They 
are also given the opportunity to go to graduate school.
    I feel very strongly about this graduate school business 
and I feel very strongly about foreign language. And I would 
just put in a plug here that the committee has legislation that 
I have proposed, you mentioned language study and culture and 
so on, I believe that we could build a cadre, a significantly 
large cadre of younger officers in the American Army and the 
services if we were to offer incentives for students while they 
are in ROTC in our universities to study hard languages.
    You learn the culture, you learn about the area, and even 
if you don't use it or aren't deployed for 5 or 10 years, if 
you take a language for 3 years, you can pick it up right away.
    So the idea would be the first year you take Arabic or 
whatever it is, you paid X; second year, two X, and the third 
year, three X. And the reality is 50 bucks a month for a 
college student is serious beer money.
    And so the opportunity to get a bunch of these kids signed 
up to take tough languages, I think, could really produce a 
significant number of officers who have the cultural awareness, 
but also have a real language skill.
    Admiral Mullen. The officer corps that I have dealt with in 
all the services want a graduate education and how we provide 
that, I think, would help us clearly retain them.
    I am surprised to hear the numbers are as low as you have 
stated there, ma'am. I would have thought they would have been 
larger than that, and I want to go back and check that.
    It is a big commitment to them and it is also a great 
retention incentive, as well as focusing it in the kinds of 
areas that the secretary just talked about actually across a 
broad range of academic requirements, which they seek, and we 
need to provide for them.
    I am not aware that the retention rate in the Army is as 
low as you said after their first tour.
    Ms. Giffords. The graduates of West Point that we have 
within five or six years, yes.
    Admiral Mullen. Then it is 50 percent.
    Ms. Giffords. Yes.
    Admiral Mullen. Their initial obligation is typically five 
years. The numbers I have looked at were not that stark. It has 
been actually pretty consistent over the last five or six 
years.
    Again, I will go back and check that and make sure that my 
numbers are--that I am getting it right, as well.
    But I appreciate your emphasis on this. It is a big deal 
for lots of reasons and it wins across the board. It wins in 
the service, it wins with the individual, it wins with the 
family, and we need to be as robust as we possibly can.
    Ms. Giffords. Thank you. Thank you, Mr. Chairman.
    The Chairman. Will the secretary send over a proposal 
regarding the ROTC?
    Secretary Gates. Yes, sir.
    The Chairman. We would appreciate that, if you would think 
it through and----
    Secretary Gates. I suspect deep in the committee's files, 
there is a copy, but I will send it up.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. Thank you. And I might also say that the 
gentlelady's question touches upon an area that the chairman 
has jurisdiction over. We call it professional military 
education and I know he has taken note of your inquiry on that 
and I know he will follow through and stay on top of it.
    The gentlelady from New Hampshire, Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you. And thank you, Secretary Gates, 
and thank you, Admiral Mullen, and thank you, also, for being 
here.
    This is a mighty big budget and I certainly believe in a 
strong defense, we all do, and it is our critical function here 
to make sure we have a strong defense.
    But it is also our responsibility to take a harder look at 
this budget and figure out if we have this right. You were 
talking about the drawdown and I seem to recall the President 
saying that if General Petraeus wants to stop the drawdown, 
that is okay with him.
    So that doesn't mean that we are going to draw down or not, 
but we have to figure that there is going to be more money 
spent in Iraq if the President changes course again.
    And what we have been looking at is $10 billion to $12 
billion a month. Now, you talked about $50 for beer money and I 
will tell you that $50 a month, in my district, might help 
somebody pay for heating oil or might help them pay for a 
doctor bill.
    So it is my responsibility to take a look at this. I am 
also on the Subcommittee for Personnel and Readiness, and I 
wanted to ask you a couple of questions.
    I can imagine how troops feel when they get a really big 
retention bonus or a sign-up bonus, but then how do they feel 
when we reduce benefits on the other end, higher co-pays, 
increased enrollment fees and deductibles, and one of them, a 
projected reduction of eligible beneficiaries who will elect to 
continue or begin TRICARE enrollment?
    How would that happen? How would somebody decide not to 
have TRICARE enrollment or not to continue? Where do you see 
savings in that?
    I can't imagine that people would pull away from a health 
care policy.
    Ms. Jonas. Just to be clear, the affected population there 
would be the working age retirees. So this is not the over 65 
nor is it the active duty.
    So that would be more difficult. But the proposal in the 
budget takes the recommendations of the military health care 
task force, which the Congress commissioned, and so that is 
what we are proposing.
    As the secretary has articulated earlier, the health care 
budget has doubled since 2001. In fact, we spend more on our 
health care than Germany spends on its entire defense.
    So this is something that has to be looked at in the 
future. Obviously, it is something that we cannot do without 
the help and engagement of the Congress. And I think our 
purpose is to put it on the table and try to get some 
discussion going about how we maintain a very important benefit 
to our men and women in uniform and their families, retirees.
    I actually fit in that category. My husband is a former 
Marine. But I take your point, and we value the benefit, and it 
is a very important proposal we need to work with you on.
    Ms. Shea-Porter. Well, I was a military spouse, and I know 
how critical this is for military families. And so this almost 
looks like we are just moving money. It is a shell game. We are 
moving it from here and then over there.
    We can't say--right now, I believe, Secretary, that you 
said we have $43 billion a year in medical costs for--right. 
Well, there is no reason to believe that will go down when the 
rest of the country's medical bills are going up.
    So I just can't see a projected reduction of beneficiaries 
or any money. It just doesn't look like a real savings. And, 
again, we have to look at that with the cost of $10 billion to 
$12 billion a month in Iraq and $43 billion a year for our 
troops, and we have an obligation to protect these troops and 
to honor our commitments to these families.
    And I, for one, do not want to see that cut back, but I 
know that we are looking for money. And so I want to move on to 
the next topic here.
    AFRICOM. I know that we had a hearing and we were told that 
by December 2008, they expected to see this operational, and I 
think the original cost was about $380 million for this year.
    Is that still in effect? Is that in this budget?
    Secretary Gates. I think that sounds right, yes, ma'am.
    Ms. Shea-Porter. Okay. Well, could we do that cheaper at 
home? I mean, do we have to physically be there, especially 
when we can't find a country that wants to publicly--except for 
one--publicly say they want us? Can't we do that through the 
embassies that we have right now or use facilities at home?
    Is this a place where we could save money?
    Admiral Mullen. The concept, actually, which is in 
execution right now and it is really tied to this whole issue 
of global engagement and building partnerships and, in great 
part, military-to-military relationships, but AFRICOM actually 
is--one of the deputies is a career foreign service officer.
    I mean, it is a different kind of command because of the 
world that we see in front of us and Africa is a large 
continent, with great resources and great challenges.
    And what I worry about in terms of doing it at home is we 
are going to have to be engaged one way or another. The whole 
idea of AFRICOM----
    Ms. Shea-Porter. Well, if I could interrupt. We do other 
commands from home and I think we could probably save money and 
work through our embassies.
    We need to save money here.
    My last question is the waste and fraud in Iraq hearing. 
When we had a hearing on that, they were talking about $6.8 
billion or so under indictment, $9 billion missing, and we were 
told that is because we didn't have the auditors.
    And I want to know if you took care of that problem, not 
having enough auditors in Iraq. Will we have to see those 
headlines again or have you solved it in this budget?
    Secretary Gates. Ma'am, we have, as of December or the end 
of November, we had 63 Army contractors in Iraq. By the end of 
December, we had added another 100 and there will be another 
100 on top of that by April.
    So we will have gone from 63 to over 300 contract 
specialists in Iraq.
    Ms. Shea-Porter. I am happy to hear that. And sorry to 
interrupt, but I could see I had a yellow light turning red, so 
ran out of time. Thank you.
    The Chairman. Ms. Gillibrand.
    Mrs. Gillibrand. Thank you, Mr. Chairman. Thank you both 
for your testimony today and thank you for staying so late hour 
for we freshmen. I appreciate it.
    I would like to address Pakistan and Afghanistan first. 
There was an article today in the New York Times that said 
there is growing al Qaeda presence and power in ability to 
recruit, and I know that there are significant concerns about 
Pakistan, because of the 3 million Afghanistan refugees on the 
border and in the Federally Administered Tribal Area (FATA).
    The article today said that they are beginning to have more 
success in recruiting in America, and that, obviously, caused 
grave concern to me.
    I would like to know your thoughts on what your plans are 
for Pakistan, if we do continue investments in things like 
health care, education, economic development, to try to stave 
off the next generation of terrorists.
    And, second, the article mentions that we have been 
requesting to have a greater presence or commitment in the FATA 
area to do antiterrorism work.
    I would like your thoughts on that.
    Secretary Gates. I will go ahead, I will start, and then 
the admiral can chime in.
    First of all, I think the Pakistani government, just in 
recent months, has begun to realize that it had a major threat 
to its own existence on the northwest frontier and the 
assassination of Benazir Bhutto sort of underscored that for 
them, that all of a sudden, what had been a nuisance was 
becoming a threat to the existence of the government.
    Al Qaeda has threatened to kill Musharraf, the senior 
military leaders. They have threatened to overthrow the 
government and, in fact, we are wondering right now if the 
reduction in the number of people crossing the border into 
Regional Command East (RC-East), al Qaeda, Taliban and others, 
is because they are now facing the other direction and sending 
some resources to try and attack the Pakistani, to try and 
undermine Pakistani stability.
    The Pakistani army is an army that essentially has been 
trained and equipped to potentially fight India. They are now 
going to have to reorient themselves and figure out how to do 
counterinsurgency.
    We have been very clear that we are ready, willing and able 
to help them do that, to help them in this training and to 
partner with them.
    They are very nervous about a significant American presence 
and visible, a lot of American visibility. I understand that. 
But I think General Kiyani, the new chief of staff, is getting 
his arms around the new kind of problem facing Pakistan and 
when he has had an opportunity to look at what he needs in 
order to do that, as I say, we are prepared to be helpful.
    I am not aware that there has been a significant increase 
in al Qaeda's ability to recruit Americans. There are always 
reports of a handful of Europeans and possibly Americans being 
trained in the FATA, but they are pretty scattered and sound 
like pretty small numbers.
    Most of the people seem to be from the Middle East and from 
Europe.
    Admiral Mullen. I would only add that in addition to the al 
Qaeda threat up there that I think General Kiyani and others 
are now focused on, it is also the Taliban who are there and 
Baitullah Mehsud is sort of the leader, at least the signature 
individual in that right now.
    So we are willing to assist, but it really is--and they 
have made it very clear they are a sovereign country and where 
we can, we will. Our contacts, our relationships with them are 
very good. They are a very proud military, they are a very 
capable military.
    They have a rich history and we need to be mindful of that 
and respect it as we work with them to get at this challenge.
    Mrs. Gillibrand. Have either of you recommended or 
considered a special envoy from the United States to address 
Pakistan and Afghanistan together?
    It was certainly one of the recommendations that we have 
had in the last two hearings before this committee on 
Afghanistan and Pakistan, as a way to begin to improve our 
relationship.
    Secretary Gates. I began recommending a special envoy 
representing NATO, the EU, and the U.N. to try and coordinate 
Western government and--well, not just Western, but the 
international assistance programs, particularly on the 
nonsecurity side, the civil side and economic development and 
reconstruction side.
    I began proposing that almost a year ago. It led ultimately 
to approval in NATO. We made a big effort to do it. 
Unfortunately, the collapse of the effort to get Lord Ashdown 
to do the job has been a setback. But I will tell you I leave 
in three minutes for Vilnius, where we will have a NATO defense 
ministers meeting and moving forward with trying to identify a 
new person to do this coordinating role in Kabul I think is one 
of our highest priority tasks.
    Mrs. Gillibrand. Thank you. May I ask a follow-up question? 
Thank you, Mr. Chairman.
    Because this is a budget hearing, particularly, I want you 
to just address, briefly, your budget for the transition 
between active duty and veteran status.
    We had a report in Fort Drum, which is a base right near my 
district, that the Veterans' Administration was told by the DOD 
that they could no longer assist our men and women filling out 
their disability paperwork because the rate of disability was 
so high coming from the Fort Drum area because of this 
assistance.
    Now, whether that report is true or not, I don't know. It 
just was a report that ``NPR'' made, but that is highly 
concerning to me. And looking at your budget, you have 
requested $41.6 billion for health care, a decrease from 2008 
from $42.2 billion.
    The number of reports I have from my returning men and 
women, particularly National Guard and Reserve, of post-
traumatic stress disorder (PTSD) is so high and that they are 
having to wait seven weeks to see a therapist for the first 
instance, when these men and women are having difficulty in 
their jobs, because they are having anxiety attacks, anger 
problems, and real inability to do what they are hoping to do.
    Can you just address that briefly? We really need a better 
transition system. We need to have the mental health services 
available.
    And, finally, I think the DOD should produce, every year, a 
manual for our veterans, at the minute they come out, that 
these are the services that are available to them. Right now, 
the Wounded Warriors, not-for-profit organization, did it for 
free and they had a New York City law firm spend about $2 
million of free pro bono legal time to do this.
    I think it should be under the DOD's auspices to produce 
this manual for our men and women for that transition every 
year.
    The Chairman. Thank the gentlelady.
    Any comments?
    Secretary Gates. I would just very quickly say dealing with 
PTSD is very important to us. We have hired about 800 
additional mental health professionals for the Department of 
Defense. We have assured--we have a goal, we have set a goal 
that any person who wants to see a mental health professional, 
that an appointment is guaranteed within, I think, seven days.
    I will tell you that one of the concerns that we have had 
is that--not a concern--well, it is a concern, but it is a 
problem, is hiring enough mental health professionals, and we 
are trying to hire civilians, but it has been a real challenge. 
And it has been a very high priority for us and I have told 
people to pay local fees--local salaries and so on to be 
competitive.
    But it is hugely important. We just trained--something 
really important we did--we trained 800,000 soldiers in how to 
recognize PTSD and our plan is that--and what we are trying to 
achieve is that every returning soldier will be evaluated 
within 30 days of their return. They will be evaluated again in 
another 90 to 120 days, since some of the symptoms don't show 
up for a while.
    And then if they redeploy, they will be evaluated again 
before they deploy.
    Mrs. Gillibrand. All mandatory for each service member.
    Secretary Gates. Yes, ma'am.
    The Chairman. Thank the gentlelady.
    Mr. Hunter has a comment.
    Mr. Hunter. Thank you, Mr. Chairman. Excellent hearing, Mr. 
Chairman, and I think it was a very full hearing and covered a 
lot of subjects.
    I just wanted to add one parting note here as we close 
down, and that is that I think the secretary has got a fulsome 
obligation here, extraordinary broad and he has undertaken it 
very effectively.
    During this hearing, another secretary's name was brought 
up, Secretary Rumsfeld, in less than complimentary fashion, and 
I just thought that, Mr. Chairman, it is our--we are kind of 
the corporate body here in terms of corporate history and I can 
recall that Secretary Rumsfeld's forces, when we took Iraq and 
drove that iron spear all the way to Baghdad, we did it 
destroying a large number of Iraqi divisions, with, as I 
recall, a killed in action (KIA) level of less than 150 
Americans killed in action on that particular drive, and that 
there were many operations that led to the present state, the 
present situation in Iraq that were carried out extremely well 
under the leadership of Secretary Rumsfeld.
    So at some point, Secretary Gates will be a former 
secretary and we will have another one sitting here, and I just 
want to make sure that we remember the successes of the 
gentlemen who occupy this very difficult position.
    Thank you, and great hearing, Mr. Chairman.
    The Chairman. Thank you.
    Gentlemen, we appreciate your testimony and we appreciate 
your candor. We appreciate your advice today.
    From time to time, we will be discussing the challenges as 
we work on the new defense authorization bill.
    You go with our thanks and with our admiration and have a 
safe voyage, and we look forward to seeing you when you get 
back.
    Thank you both.
    [Whereupon, at 5:03 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            February 6, 2008

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 6, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T4096.001
    
    [GRAPHIC] [TIFF OMITTED] T4096.002
    
    [GRAPHIC] [TIFF OMITTED] T4096.003
    
    [GRAPHIC] [TIFF OMITTED] T4096.004
    
    [GRAPHIC] [TIFF OMITTED] T4096.005
    
    [GRAPHIC] [TIFF OMITTED] T4096.006
    
    [GRAPHIC] [TIFF OMITTED] T4096.007
    
    [GRAPHIC] [TIFF OMITTED] T4096.008
    
    [GRAPHIC] [TIFF OMITTED] T4096.009
    
    [GRAPHIC] [TIFF OMITTED] T4096.010
    
    [GRAPHIC] [TIFF OMITTED] T4096.011
    
    [GRAPHIC] [TIFF OMITTED] T4096.012
    
    [GRAPHIC] [TIFF OMITTED] T4096.013
    
    [GRAPHIC] [TIFF OMITTED] T4096.014
    
    [GRAPHIC] [TIFF OMITTED] T4096.015
    
    [GRAPHIC] [TIFF OMITTED] T4096.016
    
    [GRAPHIC] [TIFF OMITTED] T4096.017
    
    [GRAPHIC] [TIFF OMITTED] T4096.018
    
    [GRAPHIC] [TIFF OMITTED] T4096.019
    
    [GRAPHIC] [TIFF OMITTED] T4096.020
    
    [GRAPHIC] [TIFF OMITTED] T4096.021
    
    [GRAPHIC] [TIFF OMITTED] T4096.022
    
    [GRAPHIC] [TIFF OMITTED] T4096.023
    
    [GRAPHIC] [TIFF OMITTED] T4096.024
    
    [GRAPHIC] [TIFF OMITTED] T4096.025
    
    [GRAPHIC] [TIFF OMITTED] T4096.026
    
    [GRAPHIC] [TIFF OMITTED] T4096.027
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            February 6, 2008

=======================================================================

      
                 QUESTIONS SUBMITTED BY MR. ABERCROMBIE

    Mr. Abercrombie. Mr. Secretary, given the budget request and plan 
to acquire the Joint Air-to-Ground Missile, could you please provide 
the Department's rationale for not requiring the Air Force to 
participate in the program and provide assurance that the Air Force 
will not in the future five to ten year period, develop a requirement 
for a similar capability, unique to the Air Force?
    Secretary Gates. The Air Force is not participating in the Joint 
Air-to-Ground Missile (JAGM) program for several reasons. Current Air 
Force inventories of capable air-to-surface missiles are relatively 
healthy, with Maverick refurbishment and Hellfire enhancements on-
going; a new tactical missile is not yet required by the Air Force. 
When a new Air Force missile is needed, JAGM will likely meet Air Force 
needs because it will meet or exceed all Maverick and Hellfire 
capabilities. In addition, the Small Diameter Bomb Increment II is in 
development, which complements tactical missiles, prosecuting moving 
targets in adverse weather using a multi-mode seeker and a data link 
from bombers, tactical fighters, and Unmanned Aerial Vehicles.
    Mr. Abercrombie. Mr. Secretary, during the hearing I mentioned the 
fact that the Joint Strike Fighter's (JSF) F135 engine has recently had 
a failure similar to a previous failure in the turbine third stage. As 
a result of this, you agreed to review the Department's position on 
funding of the F136, a competitive JSF engine, required by statute, but 
ignored in the Department's FY09 budget submission. Based on your 
briefings and analysis of the need for a competitive JSF engine, does 
the Department intend to change its position on funding a competitive 
JSF engine? If so, why? If not, why not?
    Secretary Gates. The Department acknowledges risks associated with 
a single source provider of the F-35 propulsion system but believes the 
risks are manageable. The two recent failures of the F135 do not alter 
the Department's position. The F135 engine experienced two engine 
failures in the third stage low pressure turbine stage. The first 
occurred in August 2007 and the second occurred in early February 2008. 
Both failures occurred in nearly identical operating regimes, and the 
data and analysis available from the second failure assisted in 
confirming the original root cause analysis. The aircraft and engine 
prime contractors have determined the root cause is likely a 
combination of factors related to the design of the blades, the 
material composition of the blade dampers, and the symmetry of the 3rd 
stage fixed vanes and are implementing appropriate fixes. The F135 is 
in development and challenges are not uncommon during this stage of a 
program. The Department assessed all aspects of the F-35 Joint Strike 
Fighter program in preparation of this year's budget. The Department 
will continue to evaluate the technical and operating risks associated 
with the F-35 propulsion system and include them in future programming 
considerations.
    Mr. Abercrombie. Our committee report from last year, House Report 
110-146, included language, page 243, that references a Government 
Accountability Office report on the Department's budget exhibits and 
program elements. Can you please provide any action that the Department 
has taken to correct the shortcomings delineated in the subject GAO 
report and actions the Department has taken to be responsive to the 
House report?
    Secretary Gates. The Department believes that the existing 
Research, Development, Testing and Evaluation (RDT&E) program element 
structure and justification exhibits provides the necessary financial 
management oversight and program characterization required by the 
Congress. The current numbering convention and exhibit format has been 
in use for many years. However, it is recognized that budget exhibits 
can be difficult to grasp given the complexity and variety of 
programmatic content.
    The Department will work with the DOD Components to expand and 
further enhance the narrative display of RDT&E program as mentioned in 
House Report 110-146. The Department is willing to work with committee 
staffs to better display RDT&E program content and address concerns. 
However, within the limitations of existing financial systems and 
framework, we do not believe that radical changes to the PE structure 
should be contemplated.
    Mr. Abercrombie. Mr. Secretary, the budget request includes neither 
advance procurement for additional F-22 aircraft, nor shutdown costs to 
shutdown the F-22 production line. We understand that a supplemental 
request includes four additional F-22 aircraft, and that the Department 
plans to retain F-22 production capability until the next 
Administration has sufficient time to review the F-22 program and 
decide whether to shutdown or continue F-22 procurement. In the absence 
of programmed funds for advance procurement of additional F-22s or line 
shutdown costs, how does the Department intend to proceed with F-22 
future production or line shutdown for fiscal years 2009 and 2010?
    Secretary Gates. The Department's programmed requirement for 183 F-
22A aircraft will be complete with the procurement of the 20 aircraft 
in the FY 2009 President's Budget. Four additional aircraft, to be 
requested in the FY 2009 supplemental, will provide production line 
flexibility. In that context, the Air Force and the Department are 
assessing the timing and costs related to both line shutdown and 
continued production activities.
    Mr. Abercrombie. The National Defense Authorization Act for Fiscal 
year 2008, section 213, required the continued obligation and 
expenditure of sufficient annual amounts in fiscal year 2008 and 
subsequent years of a competitive engine for the Joint Strike Fighter. 
It is our understanding from testimony thus far this year, as well 
budget justification materials, that the fiscal year 2009 budget does 
not include funds for the competitive engine for the F-35. If this is 
the case, can you explain, given section 213, why the fiscal year 2009 
budget does not include funding for the competitive engine program for 
the F-35?
    Secretary Gates. The Department assessed all aspects of the F-35 
Lightning II Joint Strike Fighter program in preparation for this 
year's budget submission. The FY 2009 President's Budget does not 
include funding for the alternate engine for the Joint Strike Fighter. 
The Department continues to believe the risks associated with a single 
source engine program are manageable and do not outweigh the investment 
required to fund a competitive alternative engine. The three 
Congressionally-directed engine studies have been completed. The 
conclusions, while supportive of competition in general, support the 
Department's initial findings that the expected savings from 
competition do not outweigh the investment costs. In accordance with 
section 213, the Department is obligating and expending funding 
appropriated for the competitive engine for the F-35. In the future, we 
will consider the competitive engine for the F-35 in course of the 
Department's budget deliberations
    Mr. Abercrombie. Secretary Gates, during your testimony you 
repeated your concern, first voiced during a Senate hearing, that the 
Army was unlikely to be able to afford to finish FCS in its entirety. 
Given that concern, what is your view of the FY 2009 Army request for 
the FCS program? Even if fully funded, should it be modified to focus 
on near-term technology insertions that are closer to fielding, at the 
expense of some long-term elements of the program? Overall, in your 
opinion, can the Army afford to develop separate FCS brigades in 
addition to modernizing its three other types of combat brigades 
(light, heavy, and Stryker) within the FY10-15 FYDP?
    Secretary Gates. The Department of Defense stands by the 
President's FY 2009 request for FCS, which appropriately balances near-
term and long-term investments. Regarding FCS affordability and program 
issues for the FY 2010 and beyond, my comments during testimony on 
February 6 were not meant to call into doubt my support for this 
program and for the Army's FCS approach. I was merely predicting that 
future defense budgets will be under great funding pressure, and that 
FCS will undoubtedly be scrutinized by the next Administration.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. THORNBERRY

    Mr. Thornberry. In fiscal year 2008, the President requested $6.119 
billion for SOCOM. Congress authorized and appropriated $6.06 billion. 
This year the President requested $5.727 billion, a $392 million 
decrease from last year. Yet SOCOM identified nearly $700 million in 
unfunded requirements. Moreover, the latest QDR called for Special 
Operations Forces to grow by 15% to help defeat terrorist networks. I 
would appreciate your explanation of what appears to be a budget 
shortfall and a justification if you believe Congress needs to take 
remedial actions.
    Secretary Gates. The FY 2009 budget request of the United States 
Special Operations Command (USSOCOM) is consistent with the 
Department's 2006 Quadrennial Defense Review (QDR) plan and previous 
budget requests. The Department's plan has always been to provide a 
funding spike to USSOCOM in FY 2008 to begin building infrastructure, 
increasing manpower, and equipping forces based on growth recommended 
by the QDR. Consequently, funding within the USSOCOM investment 
accounts in FY 2008 reflected the initial cost of Special Operations 
Forces (SOF) growth which did not require funding in FY 2009. While the 
investment accounts have decreased, the Operations and Maintenance 
(O&M) account has increased for the past three years. The FY 2009 
budget request provides approximately $450 million in O&M to support 
SOF growth. The force structure growth requires: 1) the expansion of 
unit and schoolhouse training, 2) additional soldier protection systems 
(such as body armor, protective clothing, and survival equipment), and 
3) civilian pay for the additional civilians.
    The FY 2009 President's Budget Request also includes the necessary 
resources to increase the SOF by 1,536 military and civilians. This 
increase will complete approximately 78 percent of the QDR directed 
growth of 13,119 personnel through FY 2011. The force will continue to 
grow at a rate necessary to recruit, train and sustain the force 
without sacrificing quality. This growth will add capabilities and 
capacities to Army Special Forces, Civil Affairs, Psychological 
Operations, and Special Operations Aviation; Naval Special Warfare; and 
Marine Corps Special Operations Forces.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. I am concerned about the military construction 
funding levels for Andersen Air Force Base on Guam, as well as the Air 
Force in general. I understand that PACAF has identified approximately 
$700 million in projects that would support the planned ISR/Strike 
capability at Andersen for fiscal years 2009 and 2010. However, the 
fiscal year 2009 budget only contains $5.2 million dollars for 
construction of a Combat Communications facility at Andersen Air Force 
Base. I am especially concerned about this development in light of the 
Air Forces overall decrease in military construction spending by 
thirty-two percent over the fiscal year 2008 budget. As the Marine 
relocation construction approaches in 2010, I am concerned that these 
Air Force projects will not be able to be completed due to various 
capacity constraints on island. As such, the lack of Air Force 
construction dollars could substantial harm the readiness of Andersen 
Air Force base to remain a viable forward operating platform. What is 
being done at the Department of Defense to address these concerns and 
possible move these projects into earlier year's defense budgets?
    Ms. Jonas. Andersen AFB, Guam, is a central component in the Air 
Force's forward-based posture supporting Global Vigilance, Global 
Reach, and Global Power capabilities. The FY 2009 President's Budget 
request reflects the $444 million programmed in the Future Years 
Defense Plan (FYDP) for the ISR/Strike program at the Andersen AFB. 
Beginning in FY 2010, this program's most urgent projects will be 
funded to ensure the availability facilities when operationally 
required.
    The Department is developing a strategy for handling the Guam 
construction-capacity limitations. This strategy will be refined during 
the development of the Guam Master Plan. The Joint Guam Project Office 
will hold an ``industry forum'' in early March 2008 that will be 
focused on identifying the island's current and projected ``ramped-up'' 
construction capacity. The Department sees the Air Force Military 
Construction projects as an opportunity for international contractors 
to incrementally increase construction capability on the island in FY 
2010.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. In your written testimony, you indicate that deterring 
wars is always preferable to fighting and winning wars. From there you 
describe some of the components of our ``new nuclear triad,'' which 
many of us agree plays a critical role in deterring potential state 
actors. Your testimony also suggests some of the most serious threats 
facing the United States are those of transnational terrorists and 
rising regional instability. What programs are you investing in, or do 
you need this year, to address the root of these threats before 
conflict arises? In particular, what are you doing to address the 
increasing radicalization of men and women who live in failing states 
that current deterrence programs like nonproliferation efforts do not 
directly address? In addition to the Global Train and Equip program 
that support our allies' armed forces, I'm also hoping you will outline 
other programs as well.
    Secretary Gates. As we empower our partners, we simultaneously seek 
to erode support for terrorists and insurgents and create a global 
environment inhospitable to extremism. A major component of the DOD 
effort against non-state actors includes countering ideological support 
to terrorism (CIST) activities, which emphasize an alternative future 
of opportunity that is more attractive than the oppressive future 
offered by violent extremists. The Department of State remains the lead 
Federal agency for public diplomacy and strategic communication. The 
Department of Defense works closely with the State Department on these 
issues. We created the Deputy Assistant Secretary of Defense for 
Support to Public Diplomacy specifically to advise me on strategic 
communications topics, including CIST, and to ensure that our CIST 
activities support and complement broader State Department efforts. As 
I have stated on a number of occasions, there is a need to increase 
spending on civilian elements of national security, including strategic 
communication.
    Effectiveness in this arena requires more than a compelling 
narrative--it requires actions that make our words credible. Some DOD 
executive education programs directly support CIST activities and 
complement investments made in training and equipment through 
investments in human capital. The Combating Terrorism Fellowship 
Program provides targeted education for partner nations and builds 
regional and global networks of officials who are better able to 
coordinate combating terrorism efforts and prevent conflict. We seek a 
$10M expansion in the authority to help meet demand. The Regional 
Centers for Security Studies develop networks of leaders who share 
common views of security challenges--especially of the threat posed by 
harmful ideologies--and facilitate their ability to influence their 
societies and work across national boundaries to reduce conflict. A 
pilot project to allow funding for non-governmental and international 
governmental personnel in Regional Center programs will add another 
valuable perspective in our efforts to counter extremism.
    The Overseas Humanitarian, Disaster, and Civic Aid fund provides 
helps partner governments serve their populations--thereby mitigating 
extremist influence and preventing conflict. Humanitarian assistance 
counters extremism by providing relief in a crisis and by funding 
projects such as schools and hospitals in fragile states. DOD seeks to 
include stabilization activities within this authority.
    Global Train and Equip builds the operational capacity of our 
international partners to counter terrorism and to provide 
stabilization. This program offers Combatant Commanders a tool to help 
prevent problems from becoming full-blown crises. Preventing a fragile 
state from deteriorating in the first place is smart, cost effective 
approach that can also save U.S. service member lives. We seek a 5-year 
extension of the Global Train and Equip authority and an increase to 
$750M in order to preserve this tool for the next Administration.
    Mr. Forbes. Last year, the annual Pentagon report and U.S.-China 
Economic and Security Commission highlight China's emphasis on growing 
its military capabilities, among them its counter-space systems, blue 
water navy, espionage, and cyber capabilities. Have the Chinese made 
you feel comfortable about the level of their transparency? What 
implications do these growing capabilities have for U.S. defense policy 
and posture?
    Secretary Gates. I remain concerned about the relative lack of 
openness and transparency of China's military and security affairs, 
especially regarding the capabilities and strategic intent behind its 
military modernization effort. This is a topic that we raise frequently 
in discussions with PRC officials, and while there has been some 
progress, such as improved access to certain facilities and equipment 
and the recent agreement to establish a Defense Telephone Link between 
the Department of Defense and China's Ministry of National Defense, 
these improvements have not occurred with the speed or scope we would 
prefer.
    The Department is monitoring carefully China's rapid and 
comprehensive military expansion--I would call your attention to our 
recently submitted 2008 Report to Congress on the Military Power of the 
People's Republic of China. The pace and scale of this build up, 
combined with the lack of openness about the capabilities and 
intentions behind it, remain a source of concern. Specifically, China's 
emerging counter-space, air and maritime power projection, information 
warfare, and strategic forces, and supporting intelligence and 
surveillance capabilities, could disrupt regional military balances.
    Given these risks, I believe there is a need for a continuous 
strategic dialogue with China in order to build greater understanding 
of its military modernization program, to improve communications, and 
to reduce the chances of miscalculation. At the same time, it is 
prudent that the Department pursue appropriate hedges against other, 
more negative outcomes. As described in the 2006 Quadrennial Defense 
Review Report, core elements of this strategy include strengthening our 
regional alliances and partnerships to reduce vulnerabilities, 
diversifying basing, and developing appropriate counters to anti-access 
threats.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. KLINE

    Mr. Kline. Section 582 of the 2008 National Defense Authorization 
Act established a national combat veteran reintegration program to 
provide National Guard and Reserve members and their families with 
sufficient information, services, referral, and proactive outreach 
opportunities throughout the entire deployment cycle. On January 29, 
2008, Lieutenant General Blum, the Chief of the National Guard Bureau, 
sent a letter to Under Secretary Chu offering to implement the program 
and projecting its cost at $73 million. Where, specifically, in the 
President's FY 2009 Budget is the funding for the Yellow Ribbon 
Reintegration Program? If no specific funding for the Yellow Ribbon 
Reintegration Program is included in the President's FY 2009 Budget, 
how do you intend to fund this program?
    Ms. Jonas. No specific funding request for the Yellow Ribbon 
Reintegration Program was included in the FY 2009 President's Budget. 
The Department will address requirements for the Yellow Ribbon Program 
in execution.
    In the FY 2008, the Department plans to begin to provide pay and 
travel costs for National Guard and Reserve combat veterans' 
reintegration at the 30, 60, and 90 day intervals. With supplemental 
appropriations provided in P.L. 110-161 the Department will begin to 
provide comprehensive Outreach Services for National Guard and Reserve 
families. These services are underway in 15 states with a planned 
expansion to all 50 states in process. These outreach services include 
transition assistance, one-on-one and group counseling (marital, well-
being, and financial counseling), Military OneSource 24/7 call response 
capability, and employment counseling.
    The Department fully supports implementation of the Yellow Ribbon 
Reintegration Program.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. GINGREY

    Dr. Gingrey. As you know, I sent you a letter recently--signed by 
70 of my House colleagues, including a number of members of this 
Committee--expressing our concern over DOD's plans to cease production 
of the F-22 following completion of the current multi-year contract. 
Secretary England sent a response to me, in which he said that ``the 
current multiyear program procures sufficient numbers of F-22s to deal 
with projected needs.'' Do you agree with that assessment--that 183 
Raptors is sufficient to deal with projected needs, despite the many 
studies that indicate it is not sufficient and the Air Force's belief 
that 183 is woefully inadequate?
    Secretary Gates. As part of a joint force of JSF and other 
platforms, the programmed buy of 183 F-22s will meet our warfighting 
needs for its peculiar advantages given projected threats. With the 
1100 fifth generation fighters projected to be in our inventory by 
2020, 183 of them F-22s, the total U.S. need will be met.
    Dr. Gingrey. Last week you said that further F-22 procurement would 
come at the expense of the Joint Strike Fighter. The Air Force has 
indicated that additional F-22 procurement would not affect their plans 
for the Joint Strike Fighter, as the two were always planned to 
complement each other. Yet it appears now that O&M funds for the F-15 
are being programmed at the expense of the F-22. Is this wise, 
considering the recent F-15 safety concerns and grounding of that 
fleet--and knowing that repairing an aging F-15 fleet, at best puts us 
at parity with future potential adversaries?
    Secretary Gates. The Department of Defense plans on utilizing the 
air-to-air capability of the F-15 as we transition to a 5th generation 
force. The 2009 budget provides funds to assess and repair the F-15s. 
Also, 177 F-15s are being significantly upgraded as ``Golden Eagles.''
    The DOD program buys 183 F-22s to meet current and future threats. 
This programmed buy will meet our warfighting needs given projected 
threats, the planned robust buy of JSFs, and prudent management of the 
F-22.
    Dr. Gingrey. The base budget for FY09 contains no funds for line 
shut-down or for advanced procurement of the F-22. Last week you said 
that a supplemental request of a few F-22s would keep the line open 
into the next Administration. However, 4 more F-22s would keep this 
line operational for 2 months--how exactly does this potential 
supplemental request hedge against the possibility that we will need 
more F-22s in the future?
    Secretary Gates. The Department is working with the Air Force to 
determine the necessary actions required to keep the F-22A production 
line viable so that the next Administration can review the program 
requirements.
                                 ______
                                 
            QUESTIONS SUBMITTED BY MRS. DAVIS OF CALIFORNIA

    Mrs. Davis of California. Secretary Gates, your speeches at Kansas 
State University and Center for Strategic and International Studies 
called for major national security reforms. As you know, this committee 
has been pushing for a comprehensive study of required reforms and 
authorized $3 million in the FY 2008 budget for this study. I 
understand that DOD is considering a cooperative agreement with the 
Project on National Security Reform for this study. 1. Is this correct? 
2. Will DOD provide the full $3 million for the study? 3. What other 
support will the department provide to this critically important 
effort? 4. What steps have you taken or do you plan to take to gain 
assistance from other departments and agencies for this effort? 5. Have 
you included any additional funding for this effort in your FY 2009 
budget?
    Secretary Gates. Yes, on February 22, 2008 the Department entered 
into a Cooperative Agreement with the Project on National Security 
Reform for this study. This study is funded with the $2.4 million that 
Congress appropriated for this effort. These funds will be adequate for 
FY 2008 efforts. In addition, the Department is reviewing other support 
needed such as subject matter experts. Given the nature of the study, 
the Department will rely on the Project on National Security Reform to 
arrange any assistance they consider appropriate from other 
departments. The Department has not included funding for this effort in 
the FY 2009 budget.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. CUMMINGS

    Mr. Cummings. The current Defense Budget proposes cuts to veterans 
funding while increasing the cost of troops' health care. Namely, the 
President's budget for domestic veterans' discretionary programs for 
2009 is $2.4 billion below the amount enacted in 2008. The budget would 
also raise fees for troops and their families enrolled in TRICARE. The 
plan would raise co-payments for all beneficiaries on prescriptions 
filled at retail pharmacies, charge an enrollment fee for Medicare-
eligible older retirees covered by the TRICARE for Life benefit, and 
charge higher enrollment fees, deductibles and co-payments for TRICARE 
Standard and TRICARE Prime to ``working age'' retirees under 65 and 
their families. Secretary Gates, please explain why we are continuing 
to put our troops in harms way in Iraq and Afghanistan yet in the 
budget proposal it appears as if we are not prepared to support them at 
home with such unreasonable cuts in funding?
    Secretary Gates. First, it should be emphasized that veterans' 
programs are generally funded in the Department of Veterans Affairs, 
not DOD.
    The United States Military has an outstanding health benefit 
program, TRICARE, for active duty military, activated Guard/Reserve, 
military retirees, and their dependents. TRICARE is the best health 
benefit program in the nation, and it has continually expanded and 
improved over the past decade.
    The Defense Health Program budget has more than doubled from $19 
billion to $38 billion in five years, and now represents eight percent 
of total DOD spending. It is projected to reach $64 billion and more 
than 12 percent of the DOD budget by 2015. Such growth, left unchecked, 
will put tremendous strain on the Department's budget, crowding out 
funding of other needs.
    At the same time, the cost to beneficiaries (annual fees, 
deductibles) has not changed since 1995 despite substantial increases 
in compensation. Indeed, some charges have been reduced. As a result, 
DOD pays a continually increasing percentage of its beneficiaries' 
health costs. In 1995, beneficiaries paid approximately 27 percent of 
their health care costs. Today they pay only 12 percent. DOD proposed a 
rebalancing of retiree cost-shares as part of the Fiscal Year (FY) 2007 
President's Budget. Congress rejected those proposals, but in the FY 
2007 National Defense Authorization Act established the Task Force on 
the Future of Military Health Care to make recommendation on, among 
other elements, ``The beneficiary and Government cost sharing structure 
required to sustain military health benefits over the long term.''
    The Task Force affirmed, ``That there should be no changes in the 
health care benefits offered to active duty military personnel, which 
are available mostly without charge to the beneficiaries. These 
benefits are designed principally to maintain a ready military, and the 
maintenance of a high level of health readiness constitutes one of the 
Task Force's most important guiding principles.'' The Task Force also 
recommended ``no significant changes in costs for care provided to 
active duty dependents.''
    However, the Task Force did recommend, ``that the cost-sharing 
relationships for the largest program for retirees (TRICARE Prime) 
should be gradually restored to levels consistent with those of 1996--
when fees and other cost-sharing elements were being established.'' The 
2009 President's Budget has assumed that those recommendations or 
others similar to those would be enacted.
    Mr. Cummings. Secretary Gates my question is in regards to the 
recruitment of minority officers and the Department of Defense's 
efforts to increase the demographics of Flag Officers across the DOD. 
Within your opening statement you state that the FY 2009 base budget 
provides $15.5 billion to increase the active Army active end strength 
532,400 and grow the Marine Corps' end strength to 194,000. What 
portion of that funding is targeted toward the recruitment and 
retention of minority officers? Is there a concerted effort to increase 
the number of minorities promoted to flag officer rank?
    Secretary Gates. Thank you for the opportunity to address a very 
important issue--the diversity of our Armed Forces. A portion of the 
$15.5 billion to increase the active end strength will fund, at an 
amount yet to be determined, advertising and incentive programs aimed 
at recruitment and retention. These programs emphasize the value, 
benefits, and responsibilities of military service, and are designed to 
appeal across-the-board to America's youth and all Service members 
irrespective of their race, ethnic background, or gender.
    In addition, the Department has undertaken numerous initiatives to 
address the recruitment and development of minority officers. Below is 
a summary of initiatives in the areas of policy and guidance, 
leadership, military recruitment, outreach, and research and studies 
that the Department of Defense has undertaken since 2001.

<bullet> Policy and Guidance.

    -  The Defense Human Resources Board, which focuses the attention 
of DOD senior leaders on human resource issues, facilitates an exchange 
of information on the Services ``best'' diversity practices, and 
monitors the Services progress on recommendations to increase diversity 
in the senior civilian and military grades.

    -  The heads of each Military Department issued policy guidance and 
established a diversity office to provide a strategic vision for 
leveraging diversity in accomplishment of combat missions.

    -  Recent promotion board guidance acknowledged the significance of 
diversity and language skills in winning the global war on terror while 
stressing that equal opportunity and equitable consideration must be 
accorded all members.

<bullet> Leadership.

    -  The Department's Chief Human Capital Officer meets frequently 
with the Human Capital Officers of each Military Department to monitor 
and evaluate demographic trends in the military and civilian workforce.

    -  Senior DOD officials have addressed the importance of diversity 
to the chain-of-command including Commanders of the Combatant Commands 
and Superintendents of the Service academies. They have solicited 
support for building diversity from audiences that include members of 
civil rights groups, members of Congress, and several other youth 
``influencers.''

    -  New flag officers and members of the Senior Executive Service 
participate in equal opportunity/diversity seminars as part of their 
Service executive orientation program.

    -  Following the 9/11 attacks, DOD established the Defense Language 
Office to oversee policy regarding the development, maintenance, and 
utilization of language capabilities; monitor trends in the promotion, 
accession and retention of individuals with these critical skills; and 
explore innovative concepts to expand capabilities.

<bullet> Military Recruitment.

    -  Active and Reserve components of the Army, Navy, Marine Corps, 
and Air Force recruiting commands employ commercial advertising 
agencies to produce effective messages for a diverse youth population.

    -  The Department's Joint Advertising, Market Research and Studies 
Program office complements the Services' efforts in developing targeted 
products and services to reach diverse audiences based on recruiting 
needs.

    -  The military services have a Spanish-speaking presence in 
cyberspace in addition to television and print advertisements that 
appeal to a diverse audience.

<bullet> Outreach.

    -  DOD offices of equal opportunity/diversity, civilian personnel, 
military personnel, small and disadvantaged business, and Service 
military and civilian recruitment offices jointly travel throughout the 
year to locations including college and university campuses, 
conferences, and conventions. They provide information on DOD business 
and career opportunities to diverse audiences and recognize DOD 
personnel for contributions to the global war on terror.

    -  Partnership agreements with various groups have been established 
to ensure their access to DOD employment, recruitment, and business 
information.

<bullet> Research and Studies.

    -  DOD has several research and study projects that focus on 
diversity and its influence on accessions.

        <all>  One important and ongoing study examines the enlistment 
        supply and resource effectiveness among different population 
        segments. All Services will benefit from this study's 
        identification of the reasons for the recent, five-year decline 
        in African American enlistments. Decision makers can use the 
        results to formulate policies to attract young African American 
        men and women into military service.

    These are but a few of the widespread initiatives and efforts to 
ensure the armed forces remain diverse from a demographic perspective. 
In addition, each of the Services has a mentoring program. These 
programs are vitally important to advancement and retention because 
they allow younger Service members to learn from the experiences of 
more successful senior military leaders.
    Mr. Cummings. Secretary Gates, you stated in your submitted 
testimony that your budget request includes $389 million or $246 
million above previously enacted funds, to launch the new Africa 
Command initiative. Particularly, funds will be utilized to: 1) 
strengthen the U.S. security cooperation with African countries; 2) 
train and equip our partners; 3) improve health, education, and 
economic development; and 4) promote peace and stability. I am 
concerned that we are simply jumping ahead of ourselves in the 
development of AFRICOM in terms of funding an initiative where many 
core issues have not been resolved. As you are aware, Africa Command 
officially attained its initial operation capability as of October 1, 
2007 and is scheduled to achieve full operation capability a little 
less than a year from now--on October 1, 2008. To achieve this targeted 
goal, a number of issues relevant to the location of the headquarters, 
composition and overall apprehensiveness by some African leaders must 
be resolved. What strides have been made to resolve these conflicting 
issues?
    Secretary Gates. Great strides have been made in resolving many of 
the core issues to which you allude. Although presence on the African 
continent remains a priority for the new command, further analysis is 
required before making any final commitments. Therefore, in the near-
term, the interim headquarters will remain in Stuttgart, Germany. 
Regarding command composition, I have personally reviewed and approved 
the command's initial structure. Between now and October 2008, 
USAFRICOM will continue building its staff, developing its interim 
headquarters infrastructure, and accepting responsibility for missions 
from USEUCOM, USCENTCOM, and USPACOM. We also continue to place great 
emphasis on engagement with our African partners. General Ward's 
numerous visits to the African continent and throughout Europe have 
enhanced our relationships and clarified our intentions to ``add 
value'' and ``do no harm.'' This, along with General Ward's public 
statements emphasizing partnership programs, has been well received and 
garnered support.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. CASTOR

    Ms. Castor. Last year, when President Bush announced that he was 
sending five additional Army brigades to Iraq as part of a troop surge 
his stated reason for doing so was ``to provide breathing room for 
political progress.'' Now, there was no surprise that outstanding and 
brave soldiers would achieve military progress, but little progress has 
been made by the Iraqis. Few of the political benchmarks have been met. 
In light of this situation, I ask: Why have more political benchmarks 
not yet been met? How much longer do you think it will be until the 
Iraqis act? How much longer do you expect that we will subject our 
ground forces to strain, and commit the American taxpayer to spending 
over $6 billion a month?
    Secretary Gates. The increase in U.S. forces in Iraq, announced by 
the President on January 10, 2007, reflected a recognition that 
sectarian violence in 2006 undermined efforts to achieve political 
reconciliation. That violence has decreased dramatically, which was a 
necessary pre-condition for political progress.
    Political reconciliation is occurring. An example is the progress 
being made toward the passage of the Amnesty Law and the Provincial 
Powers Law. This legislation addresses some of the differences among 
the major political blocs in Iraq. [Note: Since the February 6, 2008 
SASC hearing, these laws were passed by the Iraqi Council of 
Representatives and approved by the Presidency Council.]

                                  <all>

</pre></body></html>
